<html>
<title> - State, Foreign Operations, and Related Programs Appropriations for Fiscal Year 2010</title>
<body><pre>[Senate Hearing 111-199]
[From the U.S. Government Publishing Office]


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
 
48-314 PDF

2009

                                                        S. Hrg. 111-199

  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 3081/S. 1434

AN ACT MAKING APPROPRIATIONS FOR FOREIGN OPERATIONS, EXPORT FINANCING, 
AND RELATED PROGRAMS FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2010, AND 
                           FOR OTHER PURPOSES

                               __________

                          Department of State
                        Nondepartmental Witness
          United States Agency for International Development

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on State, Foreign Operations, and Related Programs

                  PATRICK J. LEAHY, Vermont, Chairman
DANIEL K. INOUYE, Hawaii             JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            SAM BROWNBACK, Kansas
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey
ARLEN SPECTER, Pennsylvania
                           Professional Staff

                               Tim Rieser
                             Nikole Manatt
                             Janett Stormes
                         Paul Grove (Minority)
                        Michele Wymer (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                              Rachel Meyer
                            C O N T E N T S

                              ----------                              

                        Wednesday, May 20, 2009

                                                                   Page

Department of State: Secretary of State..........................     1

 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Mikulski, Lautenberg, Specter, 
Gregg, Bennett, Bond, and Brownback.

                          DEPARTMENT OF STATE

                           Secretary of State

STATEMENT OF HON. HILLARY CLINTON, SECRETARY OF STATE


             opening statement of senator patrick j. leahy


    Senator Leahy. Thank you, Madam Secretary, for being here. 
We're starting a little bit late, which is my and Senator 
Gregg's fault. We were chatting with the Secretary about the 
world's problems.
    We know how busy you are. We're going to hear your 
testimony and place your written statement in the record and 
leave time for questions. There are amendments to the 
supplemental appropriations bill on the Senate floor, and 
Senator Gregg just told me there's a vote at 11:40.
    I do want to say how pleased and proud I am to have you 
representing the United States as our Secretary of State. It's 
reassuring to have someone of your stature, intellect, and 
experience, which is extraordinarily important as the top 
American diplomat. You can hold your own with any foreign head 
of state, you're instantly recognized, and you are a wonderful 
person to help reintroduce America to the rest of the world.
    It's also an opportunity for the State Department itself. 
It has had problems of leadership and management know-how. I 
think political ideology and bullying some times replaced 
common sense and the judgment of career Foreign Service 
officers. We wasted valuable time and resources. Our image has 
suffered badly. Other countries, particularly China, are 
filling the vacuum. You, with your experience, both on the Hill 
and at the White House, and now your experience at the 
Department, will help.
    We've also learned, as many of our military leaders have 
said, that military force is usually not the best option. It's 
certainly far more costly than diplomacy which could help 
prevent, in many instances--not every, but in many instances--
instability and conflict.
    I would like to see the State Department return to its 
dominant role, its rightful role, as it was under former great 
Secretaries like George Marshall and Dean Acheson. I think the 
manner in which we conduct diplomacy over the next 5 to 10 
years will determine whether the United States remains a world 
leader, as it has been for the past century. I'm one American 
who wants us to remain that leader because of our commitment to 
democracy and to the ideals of this country.
    The President has set a new course. He's replaced arrogance 
with vision and has the courage to take risks, including by 
searching for common ground with those we disagree with. We're 
powerful enough and our values are resilient enough to do that. 
We've had Presidents who have done this in both parties in the 
past. I think the obvious example is President Nixon going to 
China.
    In this time of great fiscal difficulties, your budget 
request is ambitious, but I think it reflects the magnitude of 
the challenges we face. I hope you devote as much time as 
possible to fighting for it. I know I intend to.
    I yield to my colleague and neighbor from New Hampshire, 
Senator Gregg.


                    statement of senator judd gregg


    Senator Gregg. Thank you, Mr. Chairman. I also wish to 
welcome the Secretary and appreciate her excellent 
representation of the United States. Obviously, as the chairman 
said, you bring talented ability and tremendous international 
respect to the office, and it's good for the Nation that you're 
doing this job.
    There are so many issues before us as a country. In our 
international concerns, it's hard to know where to start, but I 
think the starting point has to be the continued threat to our 
Nation from international terrorists, specifically Islamic 
fundamentalists, obtaining weapons of mass destruction, and the 
logical sources for those weapons being Iran, potentially 
Pakistan, and obviously North Korea.
    So I hope that we can get your thoughts on how we make sure 
those folks don't get their hands on those types of weapons, 
and, of course, any other thoughts you have on so many issues 
which pan before us in this very complex world. And we thank 
you for your leadership.
    Senator Leahy. Secretary Clinton, please go ahead.


                   statement of hon. hillary clinton


    Secretary Clinton. Thank you very much, Mr. Chairman, 
Senator Gregg, Senator Specter, Senator Bond. I'm very pleased 
to be here with you and to have this opportunity to discuss in 
some detail both the threats and the opportunities facing our 
country. When I appeared before the Senate Appropriations 
Committee a few weeks ago with Secretary Gates, we both 
emphasized a need for a comprehensive approach to the 
challenges we face.
    We know we are confronting instability in Afghanistan, 
Pakistan, Iraq, and the Middle East. We have transnational 
threats, like terrorism, nuclear proliferation, climate change. 
And we have urgent development needs, ranging from extreme 
poverty to pandemic disease, all of which have a direct impact 
on our own security and prosperity.
    Now, these are tough challenges, and we would be foolish to 
minimize the magnitude of the task ahead, but we also have new 
opportunities. By using all the tools of American power, the 
talent of our people, well-reasoned policies, strategic 
partnerships, and the strength of our principles, we can make 
great strides against the problems we've faced for generations 
and address the new threats of the 21st century.
    This comprehensive approach to solving global problems and 
seizing opportunities is at the heart of smart power, and the 
President's 2010 budget is a blueprint for how we intend to put 
smart power into action. The President's fiscal year 2010 
budget request for the State Department and the United States 
Agency for International Development (USAID) is $48.6 billion, 
a 7 percent increase over fiscal year 2009 funding levels.
    We know this request comes at a time when other agencies 
are experiencing cutbacks and the American people are 
experiencing economic recession, but it is an indication of the 
critical role the State Department and USAID must play to help 
advance our Nation's interests, safeguard our security, and 
make us a positive force for progress worldwide.
    Our success requires a robust State Department and USAID 
working side by side with a strong military. To exercise our 
global leadership effectively, we do need to harness all three 
Ds: diplomacy, development, and defense.
    And this budget supports the State Department and USAID in 
three critical ways. First, it allows us to invest in our 
people; second, implement sound policies; and third, strengthen 
our partnerships. We know it represents a major investment, and 
we pledge to uphold principles of good stewardship and 
accountability.
    Let me begin with people. The men and women of the State 
Department and USAID may have the world in their hands, but too 
many are trying to balance all the balls they have in the air. 
Many key positions at posts overseas are vacant for the simple 
reason we don't have enough personnel. In Beijing, 18 percent 
of our Embassy positions are open. In Mumbai, 20 percent. In 
Jeddah, 29 percent. And we face similar staffing shortages here 
at the Department in Washington, as well as USAID.
    We need good people and we need enough of them. That is why 
the President's 2010 budget includes $283 million to facilitate 
the hiring of over 740 new Foreign Service personnel. This is 
part of our broader effort to expand the Foreign Service by 25 
percent.
    The staffing situation at USAID is even more severe. In 
1990, USAID employed nearly 3,500 direct-hire personnel to 
administer an annual assistance budget of $5 billion. Today, 
the agency staff has shrunk by roughly one-third, but they are 
tasked with overseeing $13.2 billion.
    To provide the oversight that taxpayers deserve and to stay 
on target of doubling our foreign assistance by 2015, we simply 
need more people, good people to do the jobs we're asking them 
to do. We need personnel with the right skills to respond to 
the complex emergencies of the 21st century. And that's why 
we're requesting $323 million for the civilian stabilization 
initiative, and that includes expansion of the Civilian 
Response Corps. This group of professionals will help the 
United States stabilize and reconstruct societies in transition 
from conflict and civil strife.
    Now, with the right people in the right numbers, we will be 
able to implement the polices that we think are right for our 
country, and we're focusing on three priorities. First, urgent 
challenges in regions of concern, including Afghanistan and 
Pakistan, Iraq and Iran, and the Middle East; second, 
transnational challenges, such as the one that Senator Gregg 
just referred to; and development assistance.
    Now, in Afghanistan and Pakistan, our efforts center on the 
President's goal to dismantle, disrupt, and defeat Al Qaeda, 
and we know this requires a balanced approach that takes more 
than military might alone. So we're expanding civilian efforts 
and we're ensuring that our strategy is fully integrated and 
adequately resourced.
    We're helping Afghans revitalize their country's 
agricultural sector. In study after study, what we have found 
is that agriculture is still the mainstay for a country that's 
largely rural. It was once a major source of jobs and, in fact, 
of export revenue. Afghanistan was considered the garden of 
Central Asia.
    Unfortunately, that has been devastated by years of war and 
civil strife. We're supporting the Pakistani military as they 
take on the extremists who confront their country's stability. 
We're making long-term investments in Pakistan's people and the 
democratically elected government through targeted humanitarian 
assistance. And in both of these countries, we are holding 
these governments and ourselves accountable for progress toward 
defined objectives.
    Finally, we're seeking resources to deploy a new strategic 
communication strategy. I would love to get into more detail 
with you on this, but just suffice it to say we are being out-
communicated by the Taliban and Al Qaeda. That is absolutely 
unacceptable. It is not only true in Afghanistan and Pakistan, 
but as Senator Bond, who's focused on Southeast Asia knows, 
it's there, as well.
    We have to do a better job of getting the story of the 
values, ideals, the results of democracy, out to people who are 
now being fed a steady diet of the worst kind of 
disinformation, and even more than that, seeing the media used 
by these extremists to threaten and intimidate every single 
night, just as it used to be used in Iraq, until we put a stop 
to it.
    As we move forward with the responsible redeployment of our 
combat forces from Iraq, this budget provides the tools we need 
to facilitate the transition to a stable, sovereign, and self-
reliant Iraq. I was recently in Iraq, and we are very focused 
on implementing the strategic framework that went along with 
the Status of Forces Agreement, so that we do what we can to 
help increase the capacity of the Iraqi Government. And, as you 
know, we're working with Israel and the Palestinian authority 
to advance our goal of a two-state solution, and a future in 
which Israel and its Arab neighbors can live in peace and 
security.
    In addition to these urgent challenges--and there are 
others that I haven't had time to mention--we face a new array 
of transnational threats, none more important than the one 
Senator Gregg highlighted, but we have others as well: energy 
security, climate change, disease.
    The United States is not immune from any of these 
transnational threats, and we've got to develop new forms of 
diplomatic engagement. We cannot send a special envoy to 
negotiate with a pandemic or call a summit with carbon dioxide 
or sever relations with the global financial crisis, but what 
we can do is use our ability to convene to create pragmatic and 
principled partnerships. We're working through the Major 
Economies Forum in preparation for the climate conference in 
Copenhagen. We're deploying new approaches to prevent Iran from 
obtaining nuclear weapons.
    We're now a full partner in the P5-plus-1 talks. And, as 
you know, the President and I have launched a 6-year, $63 
billion global health initiative to help combat the spread of 
disease. Development will play a critical role in what we try 
to do, and I think we have underplayed the importance of 
development in creating both goodwill among people and stronger 
partnerships with governments.
    We're going to be asking for $525 million for maternal and 
child health, nearly $1 billion for education, $1.36 billion 
for addressing the root causes of food insecurity, and $4.1 
billion for humanitarian assistance, including care for 
refugees, displaced persons, and emergency food aid. We really 
believe this will advance our values. And I know, Mr. Chairman, 
you agree with us on that.
    Our smart power approach will rely on partnerships, and 
that begins with our own Government. We are seeking an 
unprecedented level of cooperation between our agencies. 
Secretary Gates highlighted this cooperation when he testified 
before you last month.
    These partnerships are critical. If we're going to be 
successful in addressing food security, then we've got to get 
everybody who deals with food aid and sustainable agriculture 
in the same room, around the same table, hammering out the 
American approach, not the State Department or the USAID or the 
USDA or some other approach. It's got to be a team, and we're 
trying to forge those teams. We think it will make us more 
efficient and cost effective at the same time.
    We're also looking to revitalize our historic alliances in 
Europe, Latin America, Africa, and Asia, strengthen and deepen 
our bilateral ties with emerging regional leaders like 
Indonesia, Brazil, Turkey, Mexico, and India, and we are 
working to establish more constructive and candid relationships 
with China and Russia.
    We're asking for $4.1 billion for contributions to 
multilateral organizations and peacekeeping efforts. This is a 
good down payment for us because for every peacekeeper that the 
United Nations puts in the field, like the ones I saw in Haiti 
a few weeks ago, it saves us money. We don't have to intervene 
or walk away, turn our back, and live with the consequences.
    We're also expanding our partnerships beyond traditional 
government-to-government efforts. We're working with women's 
groups and civil society, human rights activists around the 
world, and we're encouraging more people-to-people cooperation. 
I believe this may be one of the great new tools that we have 
in our diplomacy. Last week, I announced the creation of a 
virtual student Foreign Service that will bring together 
college students in the United States and our Embassies abroad 
to work on digital and citizen diplomacy initiatives.
    But finally, we must rely on sound principles to guide our 
actions, and we are committed to practicing what we preach, and 
that includes having an accountable Government here at home. 
We're working to make the State Department more efficient, 
transparent, and effective. For the first time, we have filled 
the position of Deputy Secretary for Resources and Management, 
and we're going to be reforming our processes in both the State 
Department and USAID.
    Mr. Chairman, we're pursuing these policies because we 
think it's in America's interest. No country benefits more than 
the United States when there's greater security, democracy, and 
opportunity in the world, and no country carries a heavier 
burden when things go badly. Every year, we spend hundreds of 
billions of dollars dealing with the consequences of war, 
disease, violent ideologies, and vile dictatorships.
    Since last testifying before this subcommittee, I've 
traveled around the globe, covering many miles and many 
continents, and I can assure you, there is a genuine eagerness 
to partner with the United States again in finding solutions. 
Our investment in diplomacy and development is a tiny fraction 
of our total national security budget, but I really believe our 
country will make very few investments that do more dollar-for-
dollar to create the kind of world we want for our children.
    By relying on the right people, the right policies, strong 
partnerships, and sound principles, we can have a century of 
progress and prosperity lead by the United States of America.


                           prepared statement


    So, Mr. Chairman, thank you for this opportunity to present 
the President's budget requests, and I look forward to 
answering your questions.
    [The statement follows:]
              Prepared Statement of Hillary Rodham Clinton
    Mr. Chairman, Senator Gregg, and Members of the Subcommittee, it's 
a pleasure to be with you this morning.
    When I appeared before the Senate Appropriations Committee a few 
weeks ago with Secretary Gates, we both emphasized the need for a 
comprehensive approach to the challenges on our nation's agenda. We 
face instability in Afghanistan, Pakistan, Iraq, and the Middle East; 
transnational threats like terrorism, nuclear proliferation, and 
climate change; and urgent development needs ranging from extreme 
poverty to pandemic disease that have a direct impact on our own 
security and prosperity.
    These are tough challenges, and we would be foolish to minimize the 
magnitude of the task ahead. But we also have new opportunities. By 
using all the tools of American power--the talent of our people, well-
reasoned policies, strategic partnerships, and the strength of our 
principles--we can make great strides against problems we've faced for 
generations, and also address new threats of the 21st century.
    This comprehensive approach to solving global problems and seizing 
opportunities is at the heart of smart power. And the President's 2010 
budget is a blueprint for how we intend to put smart power into action.
    The President's fiscal year 2010 budget request for the State 
Department and USAID is $48.6 billion--a 7 percent increase over fiscal 
year 2009 funding levels. We know that this request comes at a time 
when some other agencies are experiencing cutbacks. But it is an 
indication of the critical role the State Department must play to help 
advance our nation's interests, safeguard our security, and make us a 
positive force for progress worldwide.
    In the face of formidable global challenges, our success requires a 
robust State Department and USAID working side-by-side with a strong 
military. To exercise our global leadership effectively, we need to 
harness all three Ds--diplomacy, development and defense.
    This budget supports the State Department and USAID in three key 
ways: It allows us to invest in our people, implement sound policies, 
and strengthen our partnerships. We know it represents a major 
investment. And we pledge to uphold principles of good stewardship and 
accountability.
    Let me begin with people. The men and women of the State Department 
and USAID have the world in their hands, but too many balls in the air. 
Many key positions at posts overseas are vacant for the simple reason 
that we don't have enough personnel. In Beijing, 18 percent of our 
embassy positions are open. In Mumbai, 20 percent. In Jeddah, Saudi 
Arabia, it's 29 percent. We face similar staffing shortages at the 
Department in Washington.
    To address the challenges confronting our nation, we need good 
people--and enough of them. That's why the President's 2010 budget 
request includes $283 million to facilitate the hiring of over 740 new 
Foreign Service personnel. These new staff are part of a broader effort 
to fulfill the President's promise of expanding the Foreign Service by 
25 percent.
    The staffing situation at USAID is, if anything, more severe. In 
1990, USAID employed nearly 3,500 direct hire personnel to administer 
an annual assistance budget of $5 billion. Today, the agency's staff 
has shrunk by roughly a third, but they are tasked with overseeing 
$13.2 billion in assistance. To provide the oversight that our 
taxpayers deserve and stay on target to meet our goal of doubling 
foreign assistance by 2015, we need more people manning the decks.
    We also need personnel with the right skills to respond to the 
complex emergencies of the 21st century. To help meet this challenge, 
we are requesting $323 million for the Civilian Stabilization 
Initiative--that includes expansion of the Civilian Response Corps. 
This group of professionals will help the United States stabilize and 
reconstruct societies in transition from conflict and civil strife.
    With the right people in the right numbers, the State Department 
and USAID will be able to use smart power to implement smart policies. 
We are focusing on three priorities: first, urgent challenges and 
regions of concern, including Afghanistan and Pakistan, Iraq, and the 
Middle East; second, transnational challenges, and third, development 
assistance.
    In Afghanistan and Pakistan, our effort centers on the President's 
goal to disrupt, dismantle, and defeat al Qaeda. We know that this will 
require a balanced approach that relies on more than military might 
alone. So we are expanding our civilian efforts and ensuring that our 
strategy is fully integrated and adequately resourced.
    To create conditions that will prevent al Qaeda from returning to 
Afghanistan, we are helping Afghans revitalize their country's 
agricultural sector, which was once a major source of jobs and export 
revenue. We are supporting the Pakistani military as they take on the 
extremists who threaten their country's stability, and we are making 
long-term investments in Pakistan's people and democratically elected 
government through targeted humanitarian assistance. In both 
Afghanistan and Pakistan, we are holding ourselves and these 
governments accountable for progress toward defined objectives. 
Finally, we are seeking the resources to deploy a new strategic 
communications strategy to combat violence and empower voices of 
moderation in both countries.
    As we move forward with the responsible redeployment of our combat 
forces from Iraq, this budget provides the tools we need to facilitate 
the transition to a stable, sovereign, self-reliant Iraq and to forge a 
new relationship with the Iraqi government and people based on 
diplomatic and economic cooperation.
    Elsewhere in the Middle East, we are working with Israel and the 
Palestinian Authority to advance our goal of a two-state solution and a 
future in which Israel and its Arab neighbors can live in peace and 
security.
    In addition to these urgent challenges, we also face a new array of 
transnational threats, including climate change, energy security, 
nonproliferation, and disease. These issues require us to develop new 
forms of diplomatic engagement--we cannot send a special envoy to 
negotiate with a pandemic, call a summit with carbon dioxide, or sever 
relations with the global financial crisis. By supporting the 
Department's use of new tools and strategies, the President's budget 
will enable us to confront the threats and seize the opportunities of 
our interconnected world. For example, we are working through the Major 
Economies Forum and to prepare for the United Nations Climate 
Conference in Copenhagen. We are deploying new approaches to prevent 
Iran from obtaining nuclear weapons, and are now a full partner in the 
P-5+1 talks. And the President has launched a 6-year, $63 billion 
Global Health Initiative to help combat the spread of disease.
    This budget also reflects the critical role that development 
assistance must play in our foreign policy. We are proposing 
significant investments for critical programs including $525 million 
for maternal and child health, nearly $1 billion for education, $1.36 
billion to address the root causes of food insecurity, and $4.1 billion 
for humanitarian assistance, including care for refugees and displaced 
persons and emergency food aid. These initiatives build good will, 
alleviate suffering, and save lives, but they also make our country 
safer and our partners stronger. Smart development assistance advances 
our values and our interests. Our assistance programs will also reduce 
the risk of instability in countries that face a variety of political, 
economic, and security challenges. Providing responsible governments 
with economic support now can help avert far more expensive 
interventions in the future.
    Our smart power approach will rely on partnerships to magnify our 
efforts. These partnerships begin within our own government. We are 
seeking an unprecedented level of cooperation between agencies.
    Secretary Gates highlighted this cooperation when he testified with 
me before you last month. Partnerships are also vital beyond our 
borders. None of the great problems facing the world can be solved 
without the United States, but we cannot solve any of these problems on 
our own. We are energizing our historic alliances in Europe and Asia, 
strengthening and deepening our bilateral ties with emerging regional 
leaders like Indonesia, Brazil, Turkey, Mexico, and India, and 
establishing more constructive, candid relationships with China and 
Russia. As we work to maximize the benefits of our policies and to 
ensure that global burdens are broadly shared, we must also make more 
effective use of international organizations. Our budget request 
provides $4.1 billion for contributions to multilateral organizations 
and peacekeeping efforts--money which will fulfill our obligations to 
the United Nations and other international organizations, including 
full funding of all 2010 payments to the Multilateral Development 
Banks.
    We are also expanding our partnerships beyond traditional 
government-to-government efforts. In addition to working with women, 
civil society, and human rights activists around the world, we are also 
encouraging more people-to-people cooperation. Last week at Yankee 
Stadium, I announced the creation of a Virtual Student Foreign Service 
that will bring together college students in the United States and our 
embassies abroad to work on digital and citizen diplomacy initiatives.
    Finally, we must rely on sound principles to guide our actions. We 
are committed to practicing what we preach. And this includes a 
commitment to accountable governance at home and abroad.
    As we seek more resources, we have a responsibility to ensure that 
they are expended wisely. We are working to make the Department more 
efficient, more transparent, and more effective. For the first time, we 
have filled the position of Deputy Secretary for Resources and 
Management. Together, we are working to increase efficiency and 
implement reforms throughout the State Department and USAID.
    Mr. Chairman, we're pursuing all of these policies because it is 
the right thing to do, but also because it is the smart thing to do. No 
country benefits more than the United States when there is greater 
security, democracy, and opportunity in the world. Our economy grows 
when our allies are strengthened and people thrive. And no country 
carries a heavier burden when things go badly. Every year, we spend 
hundreds of billions of dollars dealing with the consequences of war, 
disease, violent ideologies, and vile dictatorships.
    Since last testifying before the committee, I have traveled around 
the globe, covering many miles and many continents. I can assure you 
that there is genuine eagerness to partner with us in finding solutions 
to the challenges we face.
    Our investment in diplomacy and development is only a fraction of 
our total national security budget. But this country will make very few 
investments that do more, dollar-for-dollar, to create the kind of 
world we want to inhabit. By relying on the right people, the right 
policies, strong partnerships, and sound principles, we can lead the 
world in creating a century that we and our children will be proud to 
own--a century of progress and prosperity for the whole world, but 
especially for our country.
    Thank you again for this opportunity to present the President's 
budget request. I look forward to answering your questions.

    Senator Leahy. Thank you, Madam Secretary. You mentioned 
Secretary Gates' testimony before us, and you also said we need 
an American approach, not USDA or USAID or fragmentation. I've 
talked with Secretary Gates about this, and I've looked at some 
of the speeches he's given.
    In some ways, the Defense Department is becoming our 
largest foreign aid agency. There are things they can do very 
well, very quickly. If you need to build a bridge, nobody's 
better equipped to do it than the Department of Defense (DOD). 
But if development means giving the people in the area the 
tools and training to build their own bridges, then he would be 
the first to say that the men and women at DOD are not the ones 
to do that.
    Can we start shifting what has become more and more of 
basically a State Department effort at the Department of 
Defense back to the State Department? Others in the military 
have told me they would like to see this.

         DEVELOPMENT RESOURCES/RESPONSIBILITIES AT STATE/USAID

    Secretary Clinton. Well, Mr. Chairman, this is a goal that 
both Secretary Gates and I agree on, and we are supported by 
the President in working toward that goal. We've already 
started high-level discussions between State Department and the 
Defense Department about how we will begin to move back a lot 
of the authorities and the resources that go with them.
    We are engaged in a careful analysis of what we are 
prepared to do immediately, what we will be able to do once we 
build up our capacity and focus on the tactics that will enable 
us to be effective in the field. And I think that over time, 
starting with the 2010 budget, you will begin to see a clearer 
delineation of the responsibilities of the State Department and 
USAID.
    Senator Leahy. I hope you continue to work with this 
subcommittee, because I think most of us on both sides of the 
aisle would like to see that. Speaking of resources, an article 
by David Sanger and Tom Shanker in the New York Times noted 
Pakistan is increasing its nuclear arsenal. An impoverished 
country building nuclear weapons at the same time they're 
asking for a lot more money from us in both military and 
economic aid.
    They're being threatened by an insurgency but nuclear 
weapons will do nothing to fight the Taliban or Al Qaeda. Are 
we just giving them money which is, after all, fungible, not to 
fight the Taliban and Al Qaeda, which are groups that are 
destabilizing their country more and more all the time, but to 
support Pakistan's nuclear program?

                       PAKISTAN'S NUCLEAR PROGRAM

    Secretary Clinton. Mr. Chairman, I think that there is no 
basis for believing that any of the money that we are providing 
will be diverted into the nuclear program. But let's put this 
into a broader context. I think that for the first time, we are 
developing the kind of relationships with the government and 
military of Pakistan that enable us to provide support and 
advice about the threats that they face.
    When I testified a few weeks ago, I was very concerned, 
because there seemed to be an inability or an unwillingness on 
the part of the democratically elected government to take on 
the very real threat that the Taliban posed to major population 
centers and, indeed, the security and stability of the entire 
state of Pakistan. That has turned around, and I give a great 
deal of credit to our military leadership, to Secretary Gates, 
and particularly, Admiral Mullen, who have worked to develop 
very good relationships with their counterparts.
    And so what we see now is an all-out effort by the 
Pakistani military to take that territory that had been seized 
by the Taliban. There is a lot more work to be done as we move 
forward in this relationship. Obviously, we believe that India 
and Pakistan can take more steps to build confidence between 
the two of them that will lessen the need for a nuclear 
deterrent in the eyes of the Pakistanis or the Indians. But we 
think we're on the right path, Mr. Chairman.
    Senator Leahy. There are some other aspects of that which 
we won't discuss in an open hearing, but I would appreciate it 
if you and I and Senator Gregg could talk about that at another 
time.
    You must wonder every morning when you wake up when you 
will ever get a quiet day. Iran fired another missile yesterday 
which was capable of traveling 1,200 miles and they made sure 
they got the film of it out to everybody around the world. 
Obviously, for them, obtaining a nuclear weapon is a key 
foreign policy goal.
    What are we doing about Israel and the Palestinians? We've 
seen settlement construction not only continue after Israel 
said they wouldn't and even accelerate over U.S. objections. 
The rocket attacks continue against Israel. Of course, there 
was also the Gaza catastrophe. The Israelis and Palestinians 
don't seem to be able to work this out on their own.
    We provide tens of millions of dollars to resettle Russian 
immigrants to Israel. Now we're told some of that money might 
be supporting some refugees who live in settlements we asked 
them not to build.
    I went to a small town in the West Bank a couple of years 
ago named Aboud. There was recently an article in the 
Washington Post about that town, where Muslims and Christians 
live harmoniously. For generations they had hundreds of olive 
trees, and all of a sudden, the Israelis built their security 
barrier. It went 4 miles into Palestinian territory and cut off 
one-third of their land. Hundreds of olive trees were cut down.
    They were told that the water they had always used would 
now be available only on some days, and sometimes they're not 
told when they can have it. Meanwhile, they can see sprinkler 
systems being used in the Israeli settlement. Will this 
administration get actively involved before it is too late? 
Because, frankly, if it's not already too late, it's the 11th 
hour.

                       FOREIGN POLICY CHALLENGES

    Secretary Clinton. Well, Mr. Chairman, the litany of 
challenges that you have listed are daunting. There's no 
getting around how much work lies ahead. But I want to assure 
you that in the short period of time that the Obama 
administration and I have been honored to have these positions, 
we have been working extraordinarily diligently to try to set 
up the groundwork for facing all of these difficult challenges, 
specifically with respect to the Middle East.
    As you know, on the second day of his Presidency, President 
Obama accepted my recommendation to appoint George Mitchell to 
be our Special Envoy. Senator Mitchell has been tireless in not 
only consulting with all of the parties multiple times, but in 
working through what would be our approach as we try to engage 
the Israelis and the Palestinians in such an effort.
    We made it very clear to Prime Minister Netanyahu, as you 
know, when he was here, that our Government favors a two-state 
solution. That is the goal of our efforts, what we are working 
toward. And the President was explicit in calling for a stop to 
the settlement.
    It is a very difficult set of circumstances that both the 
Palestinians and the Israelis confront, but we are operating on 
the basis of bedrock principles. The United States is committed 
to the safety and security of the state of Israel and the 
people of Israel.
    We believe in a two-state solution, and we do not want to 
see either party, the Israelis or the Palestinian authority, do 
anything that would prejudice or undermine the ability to 
achieve a two-state solution.
    We are starting early. We are engaging. The President will 
be going to the Middle East, as you know, in 2 weeks to make a 
major address. In Cairo, Senator Mitchell will be working in 
accordance with a work plan that we are setting up with the 
Israelis and the Palestinians. And I can promise you our very 
best efforts and our absolute commitment to the realization of 
a two-state solution, which we believe is in the interest of 
both Israel and the Palestinians.
    Senator Leahy. I do, too. I have further questions about 
Hamas and the rockets, but my time has run out. Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman. Let me pick up 
where you left off. Mr. Netanyahu's been here in Washington for 
the last few days, and his position seems to be pretty clear 
that you can't settle the situation of his immediate neighbors, 
the Palestinian issue and southern Lebanon issue, unless you 
settle the issue of Iran.
    First, do you believe that a precondition of resolving the 
Palestinian questions and the issue of southern Lebanon is the 
resolution of issues related to a nuclear Iran?

              MIDDLE EAST PEACE AND IRAN'S NUCLEAR PROGRAM

    Secretary Clinton. Senator Gregg, I don't think that they 
are actually dependent upon one another, but I do believe that 
the alliance which has come together of Israel and many of her 
Arab neighbors against Iran obtaining nuclear weapons is an 
opportunity that will enable us both to move forward with our 
engagement regarding Iran and our commitment to pursue 
diplomacy and to build a multilateral coalition, including not 
only the countries in the region, but beyond, European nations, 
Russia and China, and others, to recognize the extraordinary 
threat that is posed by the potential of Iran obtaining nuclear 
weapons.
    But we think that this coalition against Iran is a great 
opportunity to assist in achieving the two-state solution. 
We're not linking them. We're not saying they're dependent. We 
made it very clear to Prime Minister Netanyahu our commitment 
to pursue what we hope will be an effective strategy against 
Iran.
    The President made clear that he is committed to preventing 
Iran from obtaining nuclear weapons, with all of the 
consequences that that would entail. But at the same time, we 
cannot wait on the Palestinian-Israeli efforts regarding peace, 
so we think they have to proceed simultaneously.
    Senator Gregg. As I look at where we as a Nation see our 
greatest threat, it is obviously a terrorist organization like 
Al Qaeda or other fundamentalist Islamic organizations 
obtaining a nuclear weapon. And right now, you have a terrorist 
state developing nuclear weapons, or terrorist government in 
Iran, and you have a group of terrorists trying to capture 
nuclear weapons from a nation state, Pakistan. So those appear 
to be the two most significant examples where nuclear terrorism 
could arise.
    So I would like to get the specifics of how we keep--if you 
have ideas, what these specific ideas are for how you keep Iran 
from obtaining a nuclear weapon when they clearly are committed 
to doing that, and the timeframe seems to be shorter rather 
than longer now, and what we do in Pakistan to keep terrorists 
from taking control of nuclear weapons, specifically.

                  IRAN AND PAKISTAN'S NUCLEAR PROGRAM

    Secretary Clinton. Well, not to complicate the threats that 
you're posing, which are very real, there's a third, which is 
the acquisition of nuclear material outside of either of those 
two scenarios, which we are equally----
    Senator Gregg. I accept that, but I'm----
    Secretary Clinton. Yeah, which we are equally worried 
about. Well, first, let me just say with respect to Pakistan, 
part of the reason why we are encouraged by the military's 
strong response against the Taliban in Bunar and Swat is 
because we do not want to see the Pakistani state threatened 
with the advance of the Taliban.
    We are assured by the Pakistani military and the government 
that they have control over their nuclear weapons at this time, 
and we have offered and continued to work with them in any way 
that they deem appropriate to help them assure the safety and 
security of those weapons. I do not see that as an immediate 
threat, but it is certainly one that we take very seriously.
    With respect to Iran, our goal is to persuade the Iranian 
regime that they will actually be less secure if they proceed 
with their nuclear weapons program. There is a lot of debate 
about the timetable. Recent analyses have suggested the 
timetable may be longer than what had originally been thought. 
But whatever the timetable might be, the goal is the same--a 
nuclear armed Iran with a deliverable weapons system is going 
to spark an arms race in the Middle East and the greater 
region. That is not going to be in the interest of Iranian 
security, and we believe that we have a very strong case to 
make for that.
    At the same time, we see a growing recognition among a 
number of countries that they do not want this eventuality to 
take place, so we're having serious conversations with many 
beyond the immediate region. I don't want to go into details 
because, obviously, this is a very difficult undertaking, and 
we don't want to be telegraphing everything we're doing, but 
the strategy which we are laying out does have a timeframe, as 
the President said during his meeting with Prime Minister 
Netanyahu, where we either see some openness and some 
willingness to engage on this very important issue with us or 
we don't, but we are going to pursue our diplomatic efforts.

                            AUNG SAN SUU KYI

    Senator Gregg. I appreciate that. I appreciate you can't be 
specific, but this is such a huge issue, as if we were looking 
at Germany in 1930, in my opinion. But may I turn to another 
topic which I would just like to get your quick thought on, and 
that is what we do in Burma. With Aung San Suu Kyi now being 
tried, and we have this dictatorship, which is incredibly 
oppressive, of Than Shwe, and isn't it time for us to take some 
more insistent action than what we've been doing in this area?
    Secretary Clinton. Senator, that's exactly what we are 
looking at through a strategic review. I know there's been 
consultation with some of the Members and staff on the Hill 
looking for the best ideas we would have going forward. We are 
absolutely committed to trying to come up with an approach that 
might influence the regime we reject. Their baseless charges 
against Aung San Suu Kyi, their continuing resistance to a free 
and open electoral process, if they stay on the track they're 
on, their elections in 2010 will be totally illegitimate and 
without any meaning in the international community.
    I've been heartened by the response we've received. I've 
spoken to a number of the foreign secretaries of the ASEAN 
countries who've issued strong statements. We're working to get 
more support in the United Nations. We share your both 
frustration and distress at the repressive regime. There are 
several countries that have influence on the Burmese junta, and 
we are going to try to do our best to influence them to see 
that this repressive regime is not one that we should continue 
to support, and hopefully get a greater international base to 
take action against them.
    Senator Gregg. Thank you.
    Senator Leahy. Thank you. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. Madam Secretary, 
thank you for taking on this tough job, and thank you for the 
excellent job you are doing at it. I noted in the Washington 
Post yesterday, a statement that the administration indicated 
an interest in talking to Hamas. Obviously, a very, very touchy 
subject. Very hard to deal with a political organization which 
has articulated an intent to destroy Israel. Hard to bring them 
into the dialogue and discussion.
    Right now, the conventional wisdom, which I share, is not 
to talk to Hamas. Those who take a little different point of 
view argue that without dialogue, the problems can't be solved. 
I have long believed in dialogue with Syria and Iran and have 
spoken about it and written about it. The dialogue with North 
Korea, when it moved to the bilateral stage with President 
Bush's administration, plus multilateral, produced results, 
although it's difficult to deal with the North Koreans and make 
anything stick.
    The experience with Qaddafi in Libya is heartening. It 
shows that if you deal with someone who's arguably the worst 
terrorist in the history of the world--blows up Pan Am 103, 
Berlin discotheque, et cetera--and comes back--makes 
reparations and comes back. So you have the issue of dialogue.

                                 HAMAS

    There are recent pronouncements by the leadership of Hamas 
of easing off on their threat to destroy Israel. Several 
comments in a 5-hour interview reported by the New York Times 
recently, a 10-year truce. Well, a lot can happen in 10 years. 
You don't need reciprocity to declare a truce. You can declare 
a truce. What do you see in our dealings with Hamas, from the 
point of view of aid development, which you talked about 
earlier, and I agree with you, to try to bring the people under 
Hamas' jurisdiction to reject them on election, which would 
solve the problem. How do you engage Hamas, if at all?
    Secretary Clinton. Well, Senator Specter, it is not the 
administration's policy to engage with Hamas. There are no 
efforts on the part of any official within the administration 
to do so. We have made very clear what our ground rules were, 
that in order for us, or we hope others, to deal with Hamas, 
Hamas had to renounce violence, had to accept the right of 
Israel to exist, and had to agree to adhere to the previous 
agreements entered into by the Palestinian Liberation 
Organization (PLO) and the PA.
    So there is not any policy whatsoever, nor any authorized 
outreach to Hamas. And what we have been stressing is not only 
our strong conviction, but the principles embodied in the 
quartet, which consists of the United States, United Nations, 
the European Union, and Russia, all of whom have signed on to 
the same formulation regarding Hamas. But equally, the implicit 
expectation in the Arab peace initiative, that there had to be 
a willingness by Hamas, for it to ever come to any table that 
any of us would be a part of, to meet those requirements.
    Now, I agree with you that at points in history, there have 
come opportunities for us to take advantage of, such as the 
Qaddafi example you provided. We see nothing at this moment 
that suggests that Hamas is anything other than a terrorist 
organization, a resistance organization, unwilling to really 
stake its future on a future of peace and security in a 
Palestinian state living next to Israel, and so we are dealing 
with a Palestinian authority.
    Senator Specter. Thank you. Madam Secretary, turning now to 
other dialogue potentials, it is my hope that the 
administration will pursue a dialogue with Syria. Only Israel 
can decide for itself whether it wishes to give up the Golan, 
and anything done will have to be not with trust, but with 
verification, but the negotiations which Turkey has brokered 
appear to have some promise. And Foreign Minister Walid al-
Mu'allim I think, has established a record of credibility, and 
I would suggest he is a good negotiating partner.

                       OPENING DIALOGUE WITH IRAN

    Let me come to a question with respect to Iran. Prime 
Minister Netanyahu was very pleased with the meeting with 
President Obama and the timetable which the President has set, 
looking to the Iranian elections, as the potential for dialogue 
and holding out the possibility of bilateral dialogue, and I 
hope you will pursue that.
    And putting a timetable for the first time on not waiting 
indefinitely with all the options on the table--and I speak in 
generalities, not to beat a tom-tom unnecessarily.
    The offer that the Russians made some time ago to enrich 
the uranium, I think, has never been pursued or publicized. 
Perhaps it has been pursued, but not publicized. But that seems 
to me to be a perfect lie when Iran insists that they're 
developing--enriching uranium for peaceful purposes, and the 
Russians can provide it for them.
    What conceivable excuse--when they resist something so 
obvious as that, it seems that would be a good wedge to get 
more cooperation from China, Russia, and other countries. What 
can be done to pursue Russian enrichment of their uranium?
    Secretary Clinton. Well, Senator Specter, that is an option 
that is being considered within the P5-plus-1, as well as 
within our own deliberations. We have a broad range of issues 
to discuss with the Iranians if they respond affirmatively to 
the President's invitation to do so. And obviously, they are in 
the midst of election season. We know what that means. So it's 
unlikely that we will get a response or a dialogue going until 
there is some settling of the political scene. But your 
reference to the enrichment potential is one that we are 
exploring.
    Senator Specter. Thank you very much, Madam Secretary. 
Thank you, Mr. Chairman.
    Senator Leahy. Thank you. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman. Madam 
Secretary, welcome. I am pleased to support your request for 
the additional resources that you badly need. I also 
congratulate you on the enunciation and implementation of smart 
power--that is, backing up our kinetic power with economic 
development, capacity building, educational exchanges, which I 
think is a way that we have to go in dealing with potential 
insurgencies.
    And speaking of those, I congratulate you on having made 
your first official visit to Indonesia, the largest Muslim 
nation in the world, headed by an American-educated president 
who's working hard to bring Indonesia into a position where it 
and Southeast Asia will not be threatened with terrorists.
    I think we've all heard now that the second attack, the 
follow-on after 9/11, was to be an attack on the west coast by 
Hambali and his associates from Indonesia. I have a much longer 
statement that I will put in the record, to everybody's great 
relief.
    Senator Leahy. We will all read it.
    Senator Bond. I'm sure you will.
    [The statement follows:]
           Prepared Statement of Senator Christopher S. Bond
    Secretary Clinton, welcome back to the Senate, it is a pleasure to 
have you before the committee today.
    I applaud your leadership of the State Department and for embracing 
the concept of ``smart power.''
    Many people in the world in less-developed nations are suffering 
right now--their governments don't work; their people are hungry; there 
is little hope.
    These people, whether they live in Afghanistan, Southeast Asia or 
the Middle East, are vulnerable to ideologies that promise a better 
life, whether or not those ideologies deliver.
    Right now many of those nations are vulnerable to an ideology known 
as Extremist Violent Islam. Their goal: to destroy Western nations and 
convert the world to their ideology. Their tactic: terrorism.
    We all know that anti-Americanism is growing throughout the world. 
So how do we respond to this ideology, and to the terrorism that 
results? Obviously, where appropriate, we are sending American troops 
to defend America.
    But we need to do more.
    And as a member of the committees on Intelligence and Defense and 
Foreign Operations appropriations, I look forward to working with you 
in a constructive, bipartisan manner to enhance our nation's military, 
intelligence and diplomatic power, or--as you and I refer to the 
latter--our nation's ``smart power.''
    Enhancing our nation's smart power must be an essential component 
of our national security strategy. I believe 80-90 percent of our war 
against extremists and terrorism, involves putting additional resources 
towards smart power initiatives such as:
  --Peace Corps volunteers
  --USAID foreign service officers (I'm cosponsoring legislation to 
        increase the number of FSO's with Sen. Durbin)
  --Educational and cultural exchanges like the Eisenhower fellowships 
        and Financial Services Volunteer Corps
  --Robust and appropriately targeted public diplomacy programs
  --English language initiatives
  --And rural development and healthcare programs, to name just a few.
    In other words, I believe our nation needs to put proactively more 
sandals and sneakers on the ground, in order to prevent having to put 
boots and bayonets on the ground in the future.
    You see--Smart Power recognizes that before a person can choose his 
politics, he has to have enough to eat, and a stable community in which 
to live.
    One area where I have long called for increased focus, and an area 
where the United States has abiding interests and opportunities for the 
deployment of our nation's smart power is Southeast Asia.
    The 10 member ASEAN countries represent our fifth largest trading 
partner, the U.S. exports twice that of what it exports to China to 
ASEAN, and is home to approximately one-quarter of the world's Muslims, 
the vast majority of whom practice the peaceful, tolerant and 
mainstream teachings of Islam.
    Without continued and enhanced engagement, I believe this area runs 
the risk of becoming a second front against Islamist extremism.
    The importance of the Straits of Malacca, through which 15 million 
barrels of oil and 40 percent of the world's trade are transported 
through every day, cannot be overstated as well.
    And as you know, the cornerstone to stability and prosperity in 
this important region is the 17,508 island archipelago nation of 
Indonesia.
    I thank you for recognizing Indonesia's importance by selecting it 
as one of your first official visits as Secretary of State.
    As the world's third largest democracy and largest Muslim populated 
nation on Earth, your visit underscored that Islam and Democracy are 
not mutually exclusive--that America supports Indonesia as a key 
partner in the effort against terrorism.
    And, it demonstrated that America has not abandoned its leadership 
role in this vitally important region.
    A tremendous amount of progress has been made in Southeast Asia.
    However, the trends are not reversible.
    America must renew its efforts to stay engaged in the region, or 
run the risk of ceding influence to China and other regional powers and 
bearing witness to the radicalization of the hundreds of millions of 
Muslims in this region of paramount strategic and economic importance.

    Senator Bond. I have a book coming out that you can read at 
even greater length. But you mentioned communication, which is 
very important. Public diplomacy has really fallen down. We 
used to have a voice of America. We used to have broadcast 
bureaus. It reached out with news and information that reached 
the elites, that reached the leaders, reached the average 
citizens. Now they're playing dance music for teenagers.
    And I guess the greatest comment on that, when my son and 
his marine scout snipers recaptured Fallujah in May 2007, they 
did so with no civilian injuries, tremendous success, and the 
Al Qaeda news media reached out and put totally different 
stories, lies that not only were the BBC, Yahoo, ABC, and other 
American news organizations--his report to me was, ``We're 
winning the war on the ground, and we're absolutely losing it 
in the media.''
    We found that to be true last December in Kabul, where we 
talked to our fine Ambassador Wood, who was saying, ``When we 
do something good, it never gets publicized. When something 
happens, the Taliban or Al Qaeda will phrase it their way.'' 
And it took the ISAF 2 weeks to acknowledge what happened. So 
he set up a government media information center, and to allow 
Afghan journalists to come in. Tremendous success.
    And then when I read about it, 95 percent of it had to be 
funded by donations. Now, if there is one area where the State 
Department really needs to focus some efforts, we need to tell 
our story. If something goes wrong, admit it, tell it, 
apologize, tell what we're doing to solve it. But right now, 
we're getting killed. What are you doing in the communication 
area?

               PUBLIC DIPLOMACY EFFORTS IN SOUTHEAST ASIA

    Secretary Clinton. I could not agree more with you, 
Senator. I really appreciate your emphasis, both on Southeast 
Asia, which we have got to get reengaged in, and on this really 
important issue of strategic communications. We are revamping 
what's called public diplomacy from top to bottom. I am 
bringing in people who know how to tell a story. Our new Under 
Secretary will be one of the founders and executives from 
Discovery, a channel that has swept the world and understands 
what it is people want to hear about and how they can best be 
engaged.
    But we're not stopping there. We've got to get into the so-
called nontraditional media, which is becoming more and more 
traditional. So, for example, when I announced yesterday that 
we were sending money for humanitarian relief in Pakistan, part 
of what we're going to be doing is buying time on cell phones 
to communicate directly with the refugees, and to have them be 
able to ask questions, but to get information to them.
    In both Afghanistan and Pakistan, we realized, as you saw 
in Kabul, that the Taliban, with their little FM radio stations 
on the backs of motorcycles and pickup trucks, were spreading 
this propaganda. And, in fact, they were jamming our cell 
phones that our young military, our soldiers and our marines 
had. They were very effectively preventing communication out, 
even on a personal basis. We are addressing that.
    We have a civilian military team. We're going to be going 
at that with a great deal of effort because we cannot lose the 
information war.
    Senator Bond. Just to interrupt very briefly, I hope if you 
need additional powers to expand beyond that, there has to be 
greater coordination among our agencies. The lack of 
coordination--Defense Department, State Department, and all the 
others--is critical.

                                 USAID

    Another quick comment on USAID. It's been understaffed, 
underperformed. Afghanistan needed the agricultural development 
about which you spoke for 2 straight years. We put in $5 
million in this subcommittee for USAID to send agricultural 
extension agents over there. How many went? Zero. That's why we 
involved the National Guard to start the agricultural 
development teams. You need to have the security before you 
have the crops planted, the trees planted, the facilities set 
up.
    And I hope that you will get a reinvigorated USAID which 
can work with the Department of Defense, where security is 
needed to bring agricultural development to Afghanistan and the 
other kinds of development needed elsewhere in the world.
    Secretary Clinton. That is our intention. We've put 
together for the first time a multiagency, multitalented team 
on Afghanistan and Pakistan, and we've brought into the State 
Department representatives from the Central Intelligence Agency 
(CIA), from the USDA, from the Department of Defense, from 
across the Government, because what we have found is that, as 
you point out, there was just a disconnect.
    You know, many of us said--when I was in the Senate, I 
agreed with you--that we should have been investing in 
agriculture. We could just never kind of get the team together. 
Well, it's together now, and we are committed to doing it. 
We've got relationships with some of our great land-grant 
colleges. We're going to be using agricultural experts. We 
really believe we do have a plan.
    Now, obviously, security is an issue. It's kind of a 
chicken-and-egg issue. If you start to help people, they will 
provide security on their own. They will be the eyes and ears 
you need. But until we get to that point, we're going to have 
to have our own PRTs beefed up so that we can get our people 
out into the field. But we do have a specific plan with 
actually names next to provincial assignments, Senator. We're 
really going to go after this.
    Senator Bond. I'll be interested to see it. Thank you, Mr. 
Chairman. Thank you, Madam Secretary.
    Senator Leahy. Thank you. Senator Mikulski.
    Senator Mikulski. Madam Secretary, it's just wonderful to 
welcome you once again back to the Senate, and to welcome you 
now as America's top diplomat, but also the CEO of the State 
Department, and that's really where my questions will lie. Many 
of my colleagues have asked the policy questions about the 
issues facing this country, but policies without people, as you 
said, in implementing--in your testimony, we can't do the job.
    Going to the triad that you've said we'll stand on for 
foreign policy--defense, diplomacy, and development--I would 
like to go to the diplomacy and development issues, wearing 
both my Maryland hat and the dean of the women hat.
    I would like to go to the diplomacy hat, first of all. In 
your testimony, you talk about the need for more Foreign 
Service officers, and I would confer to that. Many of them live 
in Maryland and they speak to me not only about the great joy 
they have in serving America, but about the great stress they 
have in trying to serve America.

          PAY COMPARABILITY BETWEEN FOREIGN SERVICE EMPLOYEES

    Could you share with us how you hope to be able to retain 
people? The family stresses and particularly the issue on 
locality pay, where many of our wonderful diplomats and up-and-
coming diplomats, in study, face as much as a 20 percent pay 
cut. And if we are for Lilly Ledbetter, we're also going to be 
for the wonderful people who work at the State Department.
    Secretary Clinton. Well, I'm very grateful that you raised 
this, Senator, because there's an urgent need for pay 
comparability between Foreign Service employees assigned 
overseas and those assigned in the United States.
    A typical Foreign Service employee, as you know, spends as 
much as 70 percent of his or her career outside of our country. 
Because they do not earn locality pay while serving outside, 
they essentially take a pay cut of over 20 percent every time 
they're assigned to represent our country abroad. And for 
senior employees, this problem was corrected with the 
introduction of pay for performance in 2004, but the problem 
remains uncorrected for the entry-level and mid-level people, 
the very people we're trying to make sure stay in the Foreign 
Service.
    In fact, the base pay of an entry- or mid-level Foreign 
Service employee serving overseas is 23 percent less than what 
it would be if they stayed here in Washington.
    Senator Mikulski. So somebody trying to rebuild Afghanistan 
makes less than somebody working at the Department of Housing 
and Urban Development (HUD), trying to rebuild the cities of 
America, both serving America with duty and dedication?
    Secretary Clinton. That's exactly right. And the disparity 
grows each year because as locality pay increases as a 
proportion of pay in Washington, DC, the difference between 
overseas and domestic pay continues to widen. Now, we believe 
that this needs to be addressed urgently, but that's just a 
piece of the puzzle. That is something that is such a glaring 
inequity that it needs to be corrected.
    But we're also trying to make sure that we have enough 
training and supporting services, not only for our Foreign 
Service employee, but for their families, because of the 
confluence of greater and greater stresses on individual 
families that come from these deployments that our diplomats 
are undergoing and the increasing threat matrix that we see 
around the world. The job is just harder and harder, and that 
goes also for our USAID personnel.

                  DEVELOPMENT RESOURCES IN THE BUDGET

    Senator Mikulski. Well, Madam Secretary, I want to move on 
to development. So do you think you need more new authorizing 
legislation? Do you think you need--has the President got the 
money in this appropriations request to deal with this?
    In other words, you and I are people who like to work on 
things that are specific, immediate, and realizable. What can 
we do to retain the very best that we have in that foreign team 
that you have all over the world? We're working under great 
stress and, at times, great danger. And yet--so is it 
authorizing--is it in the budget?
    Secretary Clinton. There are several things that are in the 
budget that we need to do that will help us on this, Senator. 
One is to increase the numbers. That is something that we 
desperately need. As I said in my testimony, we haven't filled 
positions in some of our most important postings because we 
don't have the people. We are also looking to have a different 
rotation because, as we move people up the ranks, we've got to 
get them trained for the next assignment.
    If we've got a great, brilliant young Foreign Service 
officer in development, and we want to send that young person 
to Afghanistan, they're going to need language training to be 
effective. So the Foreign Service Institute needs resources. We 
have a lot of this in our budget.
    Senator Mikulski. I want to come back, and perhaps then 
your staff can get to me specifically. But essentially, the 
revitalization of the Foreign Service--let me just add one 
point.
    Secretary Clinton. Pay comparability is in the Senate 
version of the supplemental.
    Senator Leahy. If the Senator would yield, Senator Gregg 
and I put that in the supplemental bill. That's the bill we're 
going to be voting on today, and then we'll send it over to the 
other body, where we hope that they will agree to do it. That 
is something both Senator Gregg and I really worked hard on, to 
make sure it's in this bill.
    Senator Mikulski. If I could now come to the development 
part, and I'd really like to thank Senator Leahy and Senator 
Gregg for the job they've done over the years, trying to deal 
with this. But in Maryland, we are the home now to many of the 
international relief organizations. We're the home to Catholic 
Relief, World Relief, Lutheran Refugees, and they're asking 
about where are we heading with AID?
    One, that it is a contracting agency. They have worked with 
those contracts, but they're so energized over the election of 
this new President, and they want to be out there in the world, 
but they need AID to be working with, number one, in terms of 
the resources they can count on in a steady stream, and number 
two, leadership that they can count on.

                          REINVIGORATING USAID

    Could you share with us how you see taking AID from a 
contracting office to this collaborative thing, where you have 
a strong AID working with very strong NGOs that are both 
American and international?
    Secretary Clinton. That's exactly the model, and we are 
determined to move away from the contracting pipeline model. We 
do not think it has worked, and frankly, we think it has 
squandered very scarce American taxpayer dollars. There are 
just too many contractors who are in the beltway, as they say, 
who take 50 to 60 percent of the money before it ever even gets 
out into the field, and then it just kind of trickles down. We 
cannot afford doing that, and that has been unfortunately the 
trend.
    So we are looking at a revitalized, reinvigorated, and 
restaffed USAID. We've asked for a significant increase in our 
USAID Foreign Service numbers that you will see in this budget 
because as we move tasks inside, we've got to have the people 
to do them.
    Right now, there are only four agricultural specialists 
left in USAID. That's just unacceptable, and it's one of the 
reasons why we've had trouble pushing the agricultural agenda 
for Afghanistan. But your description of what the best NGOs 
want is exactly what we're going to try to produce.
    Senator Mikulski. And they want a strong AID. They don't 
see it as competition with them for resources, so they're 
looking at both a steady stream, both in the Millennium 
accounts--well, I know that my time is up. I just want to 
compliment you. You know, we, the women of the Senate, work on 
a bipartisan basis, concerned about women of the world, and, 
you know, you were part of that, and we still count you as one 
of our own. We want to compliment you on establishing an 
ambassadorial level for women's global initiatives, a great 
choice, the Judith McHale choice in public diplomacy.
    And I want to extend again a hand that you know you have 
always with us. But we, the women of the Senate, speaking for 
Kay Bailey Hutchison and all the Republican women and your 
Democratic colleagues, we want to work with you and your team 
at the State Department to really make a difference in the 
world. And we look forward to working with you on these global 
women's initiatives.
    Secretary Clinton. Thank you so much, Senator.
    Senator Leahy. I appreciate Senator Mikulski saying that, 
because on these humanitarian things we do, it is good foreign 
policy, it is good for our security, but there's also a moral 
aspect when you're the wealthiest, most powerful nation on 
Earth. We have a moral responsibility to help in these areas. I 
think most people realize that.
    Senator Bennett, from his State of Utah, has done his best 
to help. They're giving us their Governor to serve in what I 
think is one of the most difficult and one of the most 
important posts, and I'm glad to see we're sending someone who 
actually speaks the language. Senator Bennett.
    Senator Bennett. You took my opening comment, Mr. Chairman.
    Senator Leahy. Go ahead and say it again.
    Senator Bennett. Madam Secretary, welcome here, and I 
wanted to congratulate you and the President in your choice of 
Governor Huntsman as Ambassador to China. I recommended him to 
Colin Powell 8 years ago for exactly that position. He's 
superbly well qualified. Not only does he speak the language, 
he understands the culture.
    I will share with you a conversation I had with the 
president of the University of Utah as we were talking about 
our Governor. And you don't normally have this kind of 
conversation discussing a Governor with a college president 
who's dependent on the State legislature for support.
    And he said, ``Jon Huntsman could teach a class in Chinese 
culture. He speaks all the dialects. He understands all of the 
background by virtue of his experience there as a young Mormon 
missionary. He has fallen in love with China.'' And he said, 
``I think he's more interested in China than he is in Utah.''
    Now, I don't say that in any place that would hurt his 
career in Utah, because he was a very, very popular Governor in 
the State. But I think he is where his heart is, and I think 
you've made a very wise decision. I look forward to great 
things coming out of his service there. He also made a comment 
to me once that I think summarizes the Foreign Service, at 
least at the ambassadorial level. He said being an Ambassador 
is death by reception.
    Now, my colleagues have covered, as Senator Mikulski said, 
most of the policy issues, and I don't want to re-rake those 
leaves. But I have two enthusiasms I would like to share with 
you and get your comments on.
    The first is the Millennium Challenge Corporation (MCC). 
And I'm delighted to see this administration asking for $1.425 
billion, a significant increase over the 2009 appropriated 
level, and simply want to register formally on the record and 
in this opportunity, while we're focusing on it, to let you 
know that at least on this subcommittee, this Senator is very 
much committed to the approach of the Millennium Challenge 
Corporation.
    Too much foreign aid has been to build monuments that have 
an American plaque on them, and then don't really do very much 
later on, aren't properly maintained, don't have the impact. 
Having it done in a way that is a working activity that goes on 
forever and ever and produces results over the long term rather 
than something just nice to look at is I think the core of what 
the Millennium Challenge Corporation was formed for. There are 
some who are afraid that since, well, it happened in the Bush 
administration, it's doomed here. And I'm delighted that that 
does not appear to be the case.

                            MICROENTERPRISE

    My other enthusiasm is microenterprise, and I've been 
pushing for more and more of that the whole time I've been in 
the Senate. I'm delighted that every year, the budget goes up a 
little. But I'm concerned that 50 percent of the 
microenterprise funding benefits are not benefiting the very 
poor. And Muhammad Yunus, the Nobel Prize winner who started 
the Grameen Bank, has stayed focused on the very, very poor, 
and the point with Senator Mikulski, that 90-plus percent of 
the borrowers there are women. And they've created 
entrepreneurs and capitalists out of the very poorest women in 
the world, and I'm for all three: entrepreneurs, capitalists, 
and women.
    So could you talk about what might be done with respect to 
the microenterprise activities, whether through AID or maybe 
the Millennium Challenge account itself? Now, they don't really 
work in that area, but cooperative activities here, let's talk 
about the whole aid thing, with the focus on making it work, 
and making it work for the poor, and making it work long term, 
rather than what has been unfortunately too much a part of 
American history in this area of building something big and 
grandiose, and then not seeing long-term benefit from it.
    Secretary Clinton. Well, thank you very much, Senator 
Bennett, and thanks too for the very positive remarks about 
Governor Huntsman. We're extremely excited that he will 
represent the United States in China and assist us in this very 
important relationship.
    I also just want to echo your support for two initiatives 
from the Bush administration, both the Millennium Challenge 
grant program and PEPFAR. And we are very supportive of these 
approaches. We think that we can actually make them even better 
and better integrate what they're doing and the lessons we've 
learned from them. But we were very committed to continuing 
what we see as successful efforts.
    On microenterprise, this is very near and dear to my heart. 
I started working with Muhammad Yunus in 1983 in Arkansas, when 
we brought some of the lessons of the Grameen Bank to some of 
the poorest people in our State at that time, and I have stayed 
very much involved through my times as First Lady and certainly 
as Senator, and I couldn't agree more with you.
    The challenge is to make sure that the money we put into 
microenterprise gets into the hands of the people who need it 
the most. We've got to make some changes in order for that to 
occur, and we intend to do so. We also want to look at the best 
models. A lot of people got into microenterprise in the last 10 
years, and they weren't always as focused on the poor as 
Muhammad Yunus has been, and we're doing a real scrub of that 
as well.
    We also believe that the sustainable model that Grameen 
represents where people eventually created their own revolving 
loan fund is the better way to go than to constantly be putting 
new money out to borrowers. It's not the model we will use 
everywhere, but we think for the poorest of the poor, it is the 
best model because it changes behaviors and mindsets while it 
provides money. And you have seen that, and I have seen that. 
So we are very committed to microenterprise. It's going to be a 
big element of our revamped USAID approach.
    We do think there is a role and room for slightly more 
upscale, if you will--they're still poor, but they're on the 
brink of breaking into the middle class. They may already have 
a business that, with our help, can expand. So we don't want to 
eliminate that category of borrowers who can create more jobs 
for other people while we concentrate our efforts on the 
poorest of the poor.
    So I've consulted already with Muhammad Yunus. He came in 
and we had a long discussion. We want to bring microenterprise 
as a part of our efforts to some of the countries that we think 
would benefit most from it. Haiti is an example, and we've 
talked to Grameen about providing assistance there. Liberia, I 
met with President Ellen Johnson-Sirleaf. She's been heroic and 
deserves more help to create her economy from the ground up.
    There's just a lot of opportunity for us with 
microenterprise, and I look to you to provide advice and 
counsel and support as we move forward.
    Senator Bennett. If I could very quickly, Mr. Chairman, I 
would suggest that you also talk to the folks at the World 
Bank. I've tried that with not too much success, and I'm going 
to keep trying it. And if you're there too, maybe we can dent 
that huge bureaucracy on the subject.
    Senator Leahy. Senator Brownback.

                           FOREIGN AID BUDGET

    Senator Brownback. Thank you, Mr. Chairman. Thank you, 
Madam Secretary. Good to see you. A common area of interest 
with you we're working on right now--and this is on another 
subcommittee, on the Agriculture Subcommittee--is the food aid 
budget.
    And I just was coming across some numbers on this, that 
we've spent 65 percent of that budget on administration and 
transportation. I think that's a touch high. And, consequently, 
we keep putting more money in food aid and we get less of it 
out the door.
    So we're researching two bills, and I just want to put them 
on your radar screen because I know this is something you've 
been interested in, just a blunt instrument approach, saying no 
more than 50 percent of food aid money can go for 
administration and transportation. I think 50 percent is pretty 
generous on this. And just to really try to push the system to 
find ways to be able to get food aid to locations more cost 
effective than what we're doing right now. So I'm all for the 
food aid budget, very supportive of that.
    But it looks like to me it's a little bit like what we've 
done with the malaria program earlier. When we first started 
looking at this, 90 percent of the money was going for 
conferences and consultants, and in countries, in Africa and 
other places, saying, ``Look, we know what to do. We just don't 
have the bed nets. We don't have the sprays. We don't have the 
medicine.'' So let's put the money in that, because you know 
what to do. And it's the same on food aid.
    And I would think also, there's a key area here on 
micronutrients on food aid that's probably the best, cheapest 
way to improve lives around the world that we've got left in 
front of us, real cheap, simple, cost effective, and we're 
looking at how that can be built into our food aid budget 
better.
    Because if we're going to help people with acquired immune 
deficiency syndrome (AIDS) and malaria, the best thing we can 
probably do for them is get them clean water and decent food, 
and these are ways that are simple and pretty cost effective 
within our current budget.
    Secretary Clinton. Senator, that is music to my ears, and 
your leadership in this area is extraordinarily important to 
us, because we do think we can do a better job with the dollars 
we spend on food aid, but we also think we've got to begin to 
shift toward helping with sustainable agriculture again.
    You know, the United States led the way with the Green 
Revolution in the 1960s and made a huge difference. Starting in 
the 1980s, we began to shift away from helping farmers in poor 
countries continue to deal with depleted soil and other needs 
in modern agriculture. So we really did shift to emergency food 
aid, and we've got to do that. That's part of our mission.
    But it's like that old saying, you know, you can give a 
person a fish or teach them to fish, and we want to begin to 
help local farmers become more productive again. So we're 
looking at both of these. And I could not agree more with your 
emphasis on get the cost of the administration and the 
transportation down. One of the things that I did in the 
refugee assistance for Pakistan is to say we're going to spend 
some of this money to buy wheat in Pakistan.
    They happen to have had a bumper crop. Actually, it's one 
of President Zardari's accomplishments. He made some very tough 
decisions last summer, and now there's a bumper crop of wheat. 
Let's buy from the farmers instead of shipping the wheat all 
the way across the world, which takes forever, in fact, months 
on our containers. So we need to do both. And I think that we 
have a plan on food security that I would love to have you and 
your staff briefed on so we can get the benefit of your advice.
    And, finally, on micronutrients, a huge opportunity for us. 
Iodized salt, vitamin A, vitamin K, there's just a lot of----
    Senator Brownback. Pretty simple.
    Secretary Clinton. It's very simple, and we have to get a 
delivery system. We can partner with UNICEF, which has done 
some of this work elsewhere. But I think this holds a great 
opportunity for us.

            NORTH KOREA FUNDS/ECONOMIC ZONE IN EASTERN CONGO

    Senator Brownback. On a tougher subject, North Korea. This 
one, you've got in that budget $98 million for economic support 
funds for North Korea. I've asked you this at a prior hearing, 
but I just don't see any reason by what North Korea has done 
that we would want to use this to bribe them. They are not at 
the Six-Party Talks. They continue to have probably the worst--
that's pretty tough, but they're in the bottom five human 
rights persecution countries in the world.
    I just--I would urge you not to use those funds to bribe 
them to come back to the table. And I would hope the chairman 
would look at this as well. And before I get your comment--
because I want to hear it on that--one other issue, we've just 
put forward a bill on conflict commodities. This is dealing 
with a region in the Congo, and it's a bipartisan bill.
    I've worked with Dick Durbin and Russ Feingold and myself 
on this, trying to do an initiative there to get the 
commodities coming out of eastern Congo to come out of licensed 
mines and not ones that are run by militias that then fund the 
militias that then do gang rapes and child soldiers.
    And if we can ratchet down the money into the system, that 
worked in West Africa in the blood diamonds. A little simpler 
to do. This one is going to be I think more difficult, but 
nonetheless, I think the theory works, and that if we can do 
that in eastern Congo, I think it would go a long ways toward 
defunding the money into the militias that are multiple, but 
are doing heinous things. It's a really ugly situation that 
doesn't get as much visibility on it.
    And I hope you can look at that bill, and I hope you can 
reassure me on North Korea, we're not going to use these funds 
for bribery to get them back at the table.
    Secretary Clinton. I can reassure you completely on that, 
Senator. We are not going to expend one penny of those funds in 
the absence of their voluntary return to the Six-Party Talks 
and their resumption of the obligations that they've already 
agreed to.
    This money is there as a backstop in the event we see the 
kind of changes in actions that we're looking for from the 
North Koreans. We also are very committed to the idea you just 
outlined on conflict commodities. We think that this has a 
tremendous amount of promise. And I'd like to both look at the 
bill, but also to consult with you and Senators Durbin and 
Feingold about how we could even now try to set it up to begin 
such a process.
    There's such a rich economic zone in eastern Congo. This 
could be the catalyst for enormous job creation and prosperity 
for the people of that region. We face so many difficulties 
there, but if we could, through our efforts, convince the 
government of the DRC, of Uganda, of Rwanda, to join in an 
economic zone and to utilize the security that they have to 
protect these mines, to license them, to get the money out, to 
get it into a designated fund to help the people in the region, 
similarly to what Botswana did with their diamonds many years 
ago, we think we could make a huge difference. So I think this 
is a very important idea.
    Senator Brownback. Thank you. Thank you, Mr. Chairman.
    Senator Leahy. Before we finish, Senator Gregg, you had 
something else you wanted to say?

                            FUND FLEXIBILITY

    Senator Gregg. I just had a quick question. My view is that 
you don't have enough flexibility with the funds you have, 
certainly nowhere near the flexibility the Department of 
Defense has. And so I have an amendment that I'm proposing on 
the supplemental, which would raise the 451 authority from $25 
million to $100 million, including access to the MCC funds, if 
that's where you decided to go. And I was just hopeful you 
would be supportive of that approach.
    Secretary Clinton. I will certainly look at it, Senator, 
because I agree with you. We do not have the flexibility. And 
it is one of the reasons, to go back to the chairman's earlier 
comments, why so much authority is ceded to the Defense 
Department, because they've got the flexibility.
    And they not only have the flexibility in Washington, they 
have the flexibility on the ground. They have empowered their 
young captains, majors, lieutenant colonels with money to solve 
problems. And we come along with diplomats and development 
experts. We don't have anything like that kind of authority and 
flexibility all the way up the chain. So I will certainly look 
at this, and I appreciate your zeroing in on it.
    Senator Gregg. And specifically related to Pakistan, I've 
introduced a bill to give you up to $500 million of 
flexibility. It was actually a suggestion I think that came 
from Ambassador Holbrooke, but I would hope that you could take 
a look at that and see if you could support that as well.
    Secretary Clinton. Thank you.
    Senator Leahy. Madam Secretary, thank you for being here. I 
am heartened by the full committee meeting we also had with you 
and Secretary Gates. There are so many things the military can 
do so very, very well, so many things the State Department can 
do so very, very well, and I want to be in a position where we 
don't have to do each other's jobs.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg and I will get that comparability pay that 
Senator Mikulski talked about. We'll get it through the Senate, 
and then we're going to get it through conference with the 
House. Thank you very, very much.
    Secretary Clinton. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. The fiscal year 2009 supplemental diverges from past 
practice by giving the DOD control of funds to train and equip the 
Pakistani military, with the concurrence of the Secretary of State. The 
House version of the fiscal year 2009 supplemental contains a provision 
to shift control back to the State Department in 2010, with concurrence 
of DOD. Am I right to assume that you support that?
    Answer. The Department of State will continue to administer all 
Foreign Military Financing (FMF) to Pakistan in fiscal year 2010. 
Although the fiscal year 2010 funds for the Pakistan Counterinsurgency 
Capability Fund (PCCF) were initially requested for the Department of 
Defense, Secretaries Clinton and Gates have since agreed that these 
funds should be appropriated to the Department of State in fiscal year 
2010 and transferred to the Department of Defense to implement the 
program. Thereafter, the Department of State will oversee the PCCF and 
continue to seek the funds needed to assist the Pakistani security 
services in developing their counterinsurgency capabilities.
    Question. Like past Presidents, President Obama has called for an 
end to settlement construction. Did Prime Minister Netanyahu tell 
President Obama he would halt settlements? Do you see a way to make 
progress on a peace agreement without an end to settlements?
    Answer. Our intention is to work aggressively toward a future where 
Israelis and Palestinian are living side by side in peace and security. 
We are asking all parties to take difficult steps to help create the 
context for peace, and the resumption of meaningful negotiations, 
beginning with the fulfillment of their obligations and commitments. 
For the Israelis, that means a stop to settlements, as they committed 
to in the Roadmap in 2003. For the Palestinians, that means continuing 
their efforts to take responsibility for security and to end 
incitement, as they also committed to in the Roadmap. And we are asking 
the Arabs to act in the spirit of the Arab Peace Initiative and take 
concrete steps toward peace and normalization, as well as aggressively 
and tangibly supporting the Palestinian Authority under Palestinian 
President Abbas. We are continuing our dialogue with all parties to 
make progress on these issues.
    Question. We provide tens of millions of dollars a year to resettle 
Jews from the former Soviet Union and elsewhere to Israel. We are told 
that some of the settlement construction is to accommodate these 
immigrants. Do you know if this is correct?
    Answer. It has been our longstanding policy that no U.S. assistance 
to Israel can be used in territories occupied by Israel in 1967. The 
Department's annual grant to the United Israel Appeal for its 
Humanitarian Migrants Program requires that UIA accept that funds be 
expended solely for the benefit of humanitarian migrants who are 
living, receiving training, working or studying in territory subject to 
the administration of the State of Israel prior to 1967.
    Question. Two weeks ago, one of Hamas' leaders said it had stopped 
firing rockets at Israel. Do you know if that has in fact happened? Has 
Hamas made any further offer to refrain from violence during 
negotiations on the future of the Palestinian territories?
    Answer. According to the Government of Israel, three mortars and 
one rocket were launched from Gaza into Israel on May 2nd. Between May 
6 and May 11, two mortars and three rockets were launched from Gaza 
into Israel, according to news accounts and the Government of Israel. 
As we look back on the situation in Gaza and southern Israel over the 
last few years, it is clear that Hamas has significant influence over 
the number of attacks emanating from Gaza. It controls both a vast 
network of smuggling tunnels and munitions caches in Gaza. Past 
overtures to Hamas to refrain from violence have resulted in temporary 
lulls. While we remain hopeful that Hamas will end terror attacks on 
Israel, our ultimate objective is to convince Hamas to disavow its 
current approach and accept the Quartet principles: recognition of 
Israel, renunciation of violence, and acceptance of previous 
commitments and obligations, including the Roadmap.
    Question. I have real concerns about the effectiveness of our 
foreign aid programs, particularly in Afghanistan and Pakistan.
    I want to tell you what an experienced European aid worker told me 
a few weeks ago. He has worked in Afghanistan for 20 years and he has 
seen it all-including the past 8 years that USAID has spent billions of 
dollars there. Although his organization does not receive U.S. funding, 
I asked him his opinion of USAID. This is what he told me: ``They are 
distant from reality.'' ``They ask questions as if they are from 
another world.'' ``They are very slow to have an impact.'' ``They come 
with a plan and think they know everything.'' ``They are deaf, they 
don't like to listen, or they don't want to.''
    USAID has done some very good things in Afghanistan, but I hear 
this type of complaint far too often. What do you think is the cause of 
it, and how can it be fixed?
    Answer. With $7.9 billion obligated to development programs since 
2002, USAID provides the largest bilateral civilian assistance program 
to Afghanistan. Its work continues to be a vital support to Afghanistan 
in its efforts to ensure economic growth led by the private sector, 
establish a democratic and capable state governed by the rule of law, 
and provide basic services for its people.
    I have stated that I believe that our civilian aid efforts in 
Afghanistan have not been as successful as I would have liked due to a 
number of factors. In large part, the security restrictions and short 
tours under which USG employees operate in an ongoing war zone severely 
restrict their ability to have candid, open, and frequent dialogue with 
the recipients of our aid as is done in other Missions around the 
world. Additionally, we have just 257 staff members (U.S. Direct Hire, 
Foreign Service National and Third Country National personnel) 
responsible for $2 billion in projects this year, which means, 
unfortunately, that there is less time for ground-truthing and more 
time spent on contract management and reporting. Lastly, the dedicated 
development personnel in Afghanistan and Pakistan are working in an 
environment where progress and traction are easily eroded, so showing 
an impact is exponentially harder than it would be in a conflict-free 
zone.
    In spite of these challenges, a transformational change is taking 
place in Afghanistan. For example, we are starting to see the impact 
that 6 million students in school--one-third of whom are girls, up from 
nearly zero a decade ago--is having on society. The impact that USAID 
alone has made through building approximately 3,000 km of roads, has 
resulted in a stronger society and provided communities with increased 
access to health care, education, markets, and government services. 
Development takes time, but the long-term impact is great.
    Our aid professionals are working harder to implement programs at 
the local level, which is a positive and direct departure from previous 
strategies to work solely with the central government. This empowers 
communities and ensures that development projects meet the needs of 
those communities. We expect to see the results of this, but it will 
take some time.
    However, I am pleased to note that as a result of President Obama's 
recently announced strategy, we are changing the overall engagement of 
the U.S. Government in Afghanistan. I would like to focus on three 
areas where we are aggressively moving forward: civilian staffing; 
direct support to the Afghan government; and our procurements.
    USAID and the State Department are both in the process of 
significantly increasing staff in Afghanistan, as well as support staff 
in Washington, to allow more rapid and effective implementation of 
assistance. In Afghanistan, USAID has pledged to provide an additional 
150 American staff. Of these, 45 will be located in Kabul, with the 
remainder deployed to directly support PRTs and expand reach into the 
district and provincial levels.
    USAID and the Government of the Islamic Republic of Afghanistan 
have established the goal of greatly increasing resources through the 
Afghan government or local firms by 2011. Towards that end, USAID is 
building capacity in priority Afghan Ministries and has signed 
agreements with two ministries to provide $237 million for direct 
contracting by these ministries. Numerous firms and non-governmental 
organizations currently receive training and mentoring to improve their 
competitiveness and capability for directly handling USAID assistance.
    USAID is revisiting its operational models in Afghanistan and 
Pakistan to implement much larger development assistance programs. As 
part of that, USAID has been reviewing each procurement action for 
Afghanistan to ensure their efficiency and alignment with the new 
strategy. This review has enabled USAID to target its assistance to 
sectors and regions of the country most in need of assistance.
    Question. I opposed the invasion of Iraq and believe President 
Bush's decision to do so was a colossal mistake that did nothing to 
make us safer and cost us dearly. I have supported President Obama's 
decision to refocus on the Taliban and al Qaeda in Afghanistan and 
Pakistan.
    But I also want to know what the strategy is, and be sure that our 
goals are realistic and we do not get mired in a costly war that drags 
on indefinitely. The same applies to our aid programs, because we could 
spend huge sums in Afghanistan and Pakistan and have little to show for 
it 2, 4, 6 years from now. Why do you think our aid to these countries 
has not been more effective, and how does your fiscal year 2010 budget 
change that?
    Answer. Thank you for your support for President Obama's decision 
to focus on Afghanistan and Pakistan. As the President has outlined in 
the new strategy our success is critical to our national interests, 
Special Representative Holbrooke has undertaken with the interagency a 
thorough review of all our programs to ensure they are designed to 
implement the new strategy. We have requested a large increase in 
civilian staffing and increased resources for the effort. We are 
undertaking an unprecedented regional and international diplomatic 
engagement on Afghanistan and Pakistan to broaden support. I agree with 
you that we need to establish realistic and appropriate goals and we 
understand the need to show progress on the ground over the coming 
year.
    We are not contemplating a permanent surge, nor an indefinite war. 
We will stand with our friends in this part of the world and work to 
ensure that they ultimately are able to defend themselves and ensure 
that Al Qaeda and their extremist allies are not able to return.
    We will work with Congress to ensure that there is proper 
accountability for the assistance we are providing in Afghanistan and 
Pakistan. We support the Special Inspector General for Afghanistan 
Reconstruction (SIGAR) to ensure that our aid will be properly used and 
that it can be effective.
    Question. There is growing concern with the brutality of Mexican 
drug cartels, and the spill over into the United States. In the past 11 
months, we have appropriated more than $700 million for Mexico under 
the Merida Initiative, and you are asking for another $459 million in 
fiscal year 2010. This is a partnership, because the United States is 
the market for drugs and the supplier of the guns, and we want to help 
Mexico deal with this problem.
    Past counter-drug strategies in Latin America have failed to reduce 
the flow of drugs into the United States--the cultivation, corruption 
and violence have just migrated from one country to another. Why is the 
Merida Initiative going to be different?
    Answer. More than just a bilateral foreign assistance package, the 
Merida Initiative is an agreement, based on partnership, among the 
governments of the United States, Mexico, Central America, and the 
Caribbean to cooperate with each other and respond jointly to the 
problem of drug trafficking and associated violence throughout the 
region. Furthermore, as an integral part of ensuring success, the 
United States has committed to increasing the effectiveness of our 
efforts at home to reduce demand for drugs in the United States as well 
as the flow of illicit money and arms south into the hands of drug 
cartels. As Merida Initiative programs are implemented over the next 
months and years, we are also collaborating with our Caribbean 
neighbors on a separate but complementary security initiative specific 
to that region. We believe that we are taking a holistic approach that 
will succeed because it puts pressure on the drug trafficking 
organizations from all sides.
    We are attempting to close trafficking routes and deny weapons and 
drug proceeds to the trafficking organizations. We are assisting the 
Mexican and Central American governments to disrupt the criminal 
organizations and gangs operating in their territory and are 
cooperating in law enforcement operations to locate and arrest members 
of these organizations in the United States or wherever in the world 
they may operate. We are encouraging our Merida Initiative partners to 
share information and best practices with each other and with countries 
engaged in the same fight. We are working with willing and capable 
partners who have demonstrated a commitment to this effort. The United 
States-Mexico partnership is overseen by a high-level consultative 
group made up of cabinet members from both countries.
    Merida Initiative programs in all recipient countries include a mix 
of assistance targeted to the needs of the country and the best 
possible value added that the United States Government can provide. In 
all cases, assistance includes essential equipment as well as programs 
to strengthen the law enforcement, judicial and civil society 
institutions of the recipient countries against the corrosive effects 
of organized crime now and in the future.
    We look forward to continuing to consult with Congress as program 
implementation evolves to ensure Merida achieves our objectives and 
advances U.S. and hemispheric interests.
    Question. Most of our aid to Mexico is for the military and police, 
who have a history of human rights abuses of the worst kind--
executions, disappearances, torture, rape--and the complaints of abuses 
have increased dramatically in the past year. This undermines the goal 
of stopping drug violence and improving public security.
    The Mexican military court system is opaque and ineffective. In the 
past 10 years, military courts have sent only one military officer to 
prison. One in 10 years.
    We put human rights conditions on a portion of our aid to Mexico, 
but they have not been met and there is no evidence the military 
leadership even recognizes it has a problem. How would you respond?
    Answer. Strengthening democratic institutions and respect for the 
human rights and the rule of law are at the heart of the Merida 
Initiative. Improving public security in Mexico and addressing the 
threat posed by narco-traffickers and criminal organizations require 
enhancing the capabilities of Mexico's security forces, including 
strengthening the respect for human rights. Most reporting suggests 
human rights abuses connected with the security forces in Mexico are 
not systematic, but stem from a lack of professionalization and 
corruption among members of these forces. Of course, U.S. assistance to 
Mexican security forces is preceded by a U.S. vetting process and we 
are also aiding the Government of Mexico to enhance its own internal 
vetting capacity.
    Our partnership with Mexico under the Merida Initiative envisions a 
wide range of activities involving police professionalization and 
enhancement; prosecutorial and judicial capacity building; support for 
the inspector general and internal affairs offices of law enforcement 
agencies; human rights training; and support for human rights 
organizations and civil society including through assistance to 
independent citizen participation councils. Indeed, our overall efforts 
with respect to rule of law and judicial reform are aimed at 
strengthening these basic institutions both to improve competence and 
enhance the respect for human rights.
    The military justice system in Mexico has been criticized for its 
opaqueness. As the Mexican military plays a greater role in the 
policing function in response to the current effort to confront 
Mexico's drug cartels, it is important that the military court system 
become more transparent and vigilant. In this connection, we note that 
in May the office of the military prosecutor announced that 12 members 
of the army, including 4 officers, had been detained and would be tried 
in connection with their alleged role in the disappearance of three 
civilians in the state of Tamaulipas the previous month.
    Question. For more than a decade, I have tried to obtain an 
explanation from the Department on its implementation of the Leahy 
Amendment. That Amendment cuts off U.S. aid to a unit of a foreign 
security force if the Secretary of State has credible evidence that 
such unit has violated human rights, unless the foreign government is 
bringing those responsible to justice.
    When it comes to the Israeli military, the only answer I have ever 
received is that the Leahy Amendment has never been applied to a single 
case involving a human rights abuse there.
    There is abundant documentation of human rights abuses by Israeli 
soldiers, and investigations in these cases are too often cursory and 
result in no punishment. The cases of Abir Aramin, and Kassab and 
Ibrahim Shurah, are just two examples. I want to know what steps are 
being taken to apply the Leahy Amendment there.
    Answer. The administration aims to uphold the ideals espoused in 
the Leahy Amendment as we carry out our foreign assistance programs. I 
take seriously any reports of incidents alleged to constitute credible 
evidence of gross violations of human rights and we will continue to 
review such alleged violations by any country.
    While I have discussed the specific application of the Leahy 
Amendment with members of my new team here in the State Department, 
there are other key personnel who have yet to join us. I look forward 
to their counsel on the questions you have raised and pledge to report 
back to you soon after their arrival at the Department.
    Question. Since 9/11, my office, like others here, has received 
complaints about visa denials. We know the processing of these 
applications has become more onerous due to security concerns, but I am 
very concerned that the law is being applied in a way that harms U.S. 
interests. Let me read you part of a letter I received just last week 
from a Vermonter:

    Dear Senator Leahy: Thank you for your effort to help my company 
ensure that my Cambodian colleague, Mr. Mara Pho, got a fair hearing at 
his visitor visa interview at our Phnom Penh embassy last week.
    Unfortunately, we failed. Mr. Mara Pho's application was routinely 
denied.
    This is a colossal disappointment. Mr. Mara Pho is extraordinarily 
valuable to my company, which provides the finest educational youth 
travel programs in the world to thousands of America's brightest high-
school and university students.
    Mr. Mara Pho is, without question, one of the top 150 young 
English-speaking professionals in Cambodia today.
    Because Mr. Mara Pho was routinely rejected twice in his two 
attempts to gain a visitor's visa to attend our employer's annual 
instructor training in California, he is now not eligible for promotion 
within our company and his talents will be under-utilized.
    In fact, it is now highly likely that this extraordinarily valuable 
young professional will not work for my employer or any other U.S. 
company in the coming years. His skills are in high demand by companies 
based in Malaysia, Vietnam, China, India, Indonesia, Australia, 
Thailand and Cambodia itself.
    The global economy is crumbling. China is rising fast. Thailand is 
unstable and economic disparities and political dissatisfaction in 
Southeast Asia are sky-rocketing.
    Is this really the right time to be alienating the brightest young 
professionals of Cambodia, a part of the world of vital strategic 
importance to America?

    Madam Secretary, the law puts the burden on visa applicants to 
prove they will return to their home country, but too often it is 
applied in ways that defy common sense and we create a lot of 
resentment towards the United States as a result. I hope you will 
review the way these laws are being applied so qualified applicants are 
not turned away.
    Answer. Visa applications are adjudicated on a case-by-case basis 
according to criteria specified in the Immigration and Nationality Act 
(INA) and appropriate Federal regulations. The presumption in the law 
is that every visitor visa applicant is an intending immigrant, and the 
INA places on the applicant the burden of demonstrating that he or she 
qualifies for nonimmigrant status.
    Consular officers are obligated to review each visa application 
carefully and to conduct interviews in order to allow applicants to 
present their circumstances fully. It is our objective to provide 
courteous and helpful service to all persons requesting consular 
assistance, and it is our policy to treat all applicants fairly and 
equally. The vast majority of applicants do qualify for the visa they 
seek. Prior to this year's economic downturn and the admission of eight 
new countries into the Visa Waiver Program, we saw a steady increase in 
visa issuances annually since 2002 and in some categories, visa 
issuances now exceed pre-9/11 numbers.
    Question. With Departments of State and Homeland Security set to 
fully implement the Western Hemisphere Travel Initiative on June 1, I 
want to be clear about your preparation for this new program:
    When the previous administration prematurely launched the air 
portion of WHTI a few years ago, it was a disaster and they eventually 
had to roll back the passport requirements until the passport 
processing centers could catch up on the backlog. Since air travel 
represents about 10 percent of North American border crossings, I am 
very concerned about State's ability to handle new passport 
applications and renewals when land and sea crossings start requiring 
passports on June 1. Is the State Department prepared to handle a 
potential surge of passport applications this summer?
    Northern border States like Vermont, New Hampshire, and New York 
are heavily dependent on international travel and tourism--particularly 
from Canada. I want to make sure that citizens on both sides of the 
border know that the United States is open for business and we welcome 
Canadians coming down for business trips, vacations, or a weekend 
getaway. Do you believe that Canada and Mexico are ready for the new 
document requirements we'll be implementing on this side of the border? 
Have you been doing any outreach to Canadians and Mexicans to let them 
know which documents they will need to visit the United States?
    Answer. Yes, the State Department is fully prepared to meet the 
demand of the American public for passports and passport cards now that 
the final WHTI rule has been implemented. The Department has increased 
its capacity to process passports by 95 percent since January 2007, 
when the air portion of WHTI was implemented. The Department's Passport 
Office is continuing to increase its presence in border States. New 
passport offices opened in Detroit and Minneapolis in the past few 
months, and, later this summer, we will open offices in Dallas and 
Tucson. The Bureau of Consular Affairs has received $15 million in 
American Recovery and Reinvestment Act funding to expand our network of 
passports offices to another seven locations, including a new office in 
Vermont, as well as offices in Atlanta, Buffalo, San Diego, and El 
Paso. We will also be installing public service windows at our existing 
passport processing facilities in New Hampshire and Arkansas.
    In coordination with the Department of Homeland Security, we have 
conducted intensive outreach on new requirements for travel 
documentation under WHTI. In the months prior to June 1, State 
Department efforts concentrated on regions closest to the borders and 
included Canada. We made use of funds provided by Congress specifically 
for northern border outreach to run an intensive campaign using local 
media.
    WHTI-approved document compliance rates nationwide since June 1 are 
in the 90 percent range, according to preliminary DHS statistics. I 
would refer you to DHS for the most updated statistics. Compliance 
rates are somewhat higher than the national average along the northern 
border. We believe this clearly indicates that we delivered the message 
about WHTI requirements to the traveling public in both the United 
States and Canada. These high compliance rates demonstrate that 
citizens in both countries have a strong awareness of the WHTI 
requirements and have in large numbers obtained the necessary travel 
documentation. WHTI did not change any documentary requirements for 
Mexican nationals entering the United States. Mexican nationals still 
require visas, or a Border Crossing Card, are needed to enter the 
United States.
    The State Department experienced a small uptick in demand for 
passport books and cards right around June 1, but demand for the year 
is well below the levels seen in 2007. We are processing within our 
normal service levels of 4-6 weeks for routine applications and with 2-
3 weeks for expedited applications. Our ability to produce passports on 
an emergency basis is expanding as our agencies expand, and in the past 
2 months we have augmented our emergency services to include the 
ability to produce passport cards as well as books at several agencies 
located near northern and southern borders.
    Question. I thought President Obama did a superb job at the Summit 
of the Americas, reintroducing the United States to our Latin neighbors 
who had come to see us as heavy handed and disinterested in their 
concerns. How do you plan to build on the tone he set there?
    Answer. To build on the positive momentum from the Fifth Summit of 
the Americas, we must make concrete progress on Summit initiatives for 
the Hemisphere's citizens, particularly the poorest and most 
vulnerable. We are moving quickly to implement Summit initiatives 
announced by President Obama, including the Energy and Climate 
Partnership of the Americas; the Microfinance Growth Fund; the Social 
Protection Network; the Caribbean Basin Security Dialogue, and seeking 
ratification of the Convention on Illicit Trafficking in Firearms. We 
are working with the 12-member Joint Summit Working Group, which 
includes the Organization of American States, Inter-American 
Development Bank, and the World Bank Group, among others. These 
institutions can help to provide the necessary technical and financial 
support to leverage our own efforts in the region.
    Question. You have requested $633 million, a $95 million increase, 
for the Educational and Cultural Exchange Program. I fully support that 
and I suspect just about every Senator does. We regard these as among 
the best uses of State Department program dollars.
    Can you share with us any statistics on what this amount of money 
actually means as far as the number and backgrounds of people who will 
be able to participate in these programs?
    Does the Department have a long term strategy for expanding 
exchanges?
    Besides State Department-funded exchange programs, U.S. 
universities and businesses have their own programs. I spoke about this 
on the Senate floor not long ago, because we have heard about foreign 
scholars who are offered teaching and research positions at U.S. 
universities, but it takes so long for the Department of Homeland 
Security to do the security checks that they end up missing the 
opportunity. I know this isn't your fault, but are you aware of this 
and is there anything you can do about it? It is not only humiliating 
to the people who are invited to come here, it denies American students 
and scholars the opportunity to learn from and work with these people.
    Answer. The Bureau of Educational and Cultural Affairs (ECA) 
conducts over 45,000 people to people exchanges each year, working 
hand-in-hand with our Missions overseas. These programs are active in 
all regions of the world and increasingly engage youth and 
disadvantaged audiences. In fiscal year 2008, 54 percent of all the 
participants were women and girls. Diversity is also reflected in the 
broad spectrum of age groups, professions and social sectors that ECA's 
programs draw from. For example, there are academic opportunities for 
foreign secondary level students (the Youth Exchange and Study and 
Future Leaders Exchange high school exchange programs; as well as in-
country English study for disadvantaged high school students) 
university students (undergraduate exchanges and Fulbright graduate 
scholarships), teachers and scholars. There are programs for emerging 
leaders (the International Visitor Leadership Program) and for 
midcareer professionals in government and other public policy-related 
sectors (the Humphrey Fellowships), journalism (the Murrow program), 
and business (the Fortune/State Department Women's Mentoring 
Partnership). There are also increasing opportunities for Americans to 
gain international experience by studying abroad (Gilman and Fulbright 
programs for post-secondary students as well as critical language study 
institutes, and the Youth Exchange and Study outbound and National 
Security Language Initiative Youth programs for secondary school 
students). At the same time, ECA supports a wide array of cultural 
diplomacy programs including exchanges in the performing arts. ECA 
makes extensive efforts to remain in touch with its wide network of 
alumni from all these programs through an online community and in-
country activities and encourages them to organize projects that will 
benefit their communities.
    Exchanges have become an increasingly valuable diplomatic tool 
because of their unique ability to reach young people, underserved 
audiences and non-official figures of influence (e.g., cultural, 
religious and tribal authorities). To expand the reach of our 
educational and cultural engagement, ECA is broadening its partnerships 
with the private sector and mobilizing the broad reach of social 
networking. Looking ahead, ECA will expand America's engagement with 
young people and other key influencers overseas, using a combination of 
proven exchange models and innovative new programs. ECA will enhance 
alumni programs; expand the number of emerging leaders who travel to 
the United States; extend English language programs to more 
disadvantaged students, host country universities, and overseas 
teachers of English; and grow its youth programs to foster leadership 
skills and mutual understanding. ECA also stands ready to initiate or 
expand exchange programs with Iran, Cuba, North Korea, and others if 
and when political developments warrant.
    ECA is aware of the difficulties exchange participants have in 
navigating the visa process in order to come to the United States. Some 
of those delays are obtaining passports from their own authorities. We 
also understand the compelling need to safeguard our Nation's borders. 
A formal collaboration between the Department of Homeland Security and 
the Department of State was established in 2006 to address these 
issues. ``Secure Borders and Open Doors'' is an advisory committee that 
makes recommendations to the two departments on how to balance the 
needs of security and openness. In addition, to minimize the number of 
lost opportunities for grantees planning to visit the United States, 
public affairs staff at embassies and consulates abroad work closely 
with their colleagues in the consular sections to make the process of 
acquiring visas for exchange grantees as fast and efficient as 
possible. ECA planners make special efforts to factor into their 
scheduling the sometimes long waits for visa approval, so they can 
provide as much lead time as possible between participant selection and 
the start of a program.
    Question. I think we squandered a great opportunity after the 
collapse of the Soviet Union to forge a very different kind of 
relationship with Russia, based on trust and cooperation. Instead, we 
pursued policies that were seen as threatening and humiliating, and 
today our relations with Russia are a far cry from what they could be, 
illustrated by Russia's invasion of Georgia last year when they 
threatened to shoot down American planes carrying Georgian troops back 
from Iraq. The administration has talked of pushing a reset button for 
our relations with Russia. What does that mean in practical terms?
    Answer. As the last few years have seen a dangerous drift in 
relations between Russia and the United States, our objective for 
pressing the reset button is to revisit and strengthen the many areas 
where we can and should be working together with Russia.
    We can and should cooperate to secure WMD and related materials to 
prevent their spread, to negotiate a follow-on agreement to the START 
Treaty, which reflects the administration's interest in seeking further 
cuts in both our arsenals. The United States and Russia have a special 
obligation to lead the international effort to reduce the number of 
nuclear weapons in the world. The rising threat of insurgents in 
Afghanistan and Pakistan is of critical importance to both our 
countries, and today NATO and Russia can, and should, cooperate to 
defeat this common enemy.
    We will not agree with Russia on everything. For example, the 
United States will not recognize Abkhazia and South Ossetia as 
independent states. We will not recognize any nation having a sphere of 
influence. It will remain our view that sovereign states have the right 
to make their own decisions and choose their own alliances. But the 
United States and Russia can disagree and still work together where our 
interests coincide, as they do in many places.
    Question. We all witnessed from afar the humanitarian catastrophe 
in Sri Lanka. You spoke about it. So did the President. The Sri Lankan 
Government rejected calls from around the world to stop bombing and 
shelling areas inhabited by civilians, and to respect the laws of armed 
conflict and the rights of people who have been displaced.
    The LTTE has accepted defeat, but this looks like another example 
of a collective failure of the international community to prevent a 
bloodbath of innocent civilians. Nobody can justify or excuse the 
atrocities of the LTTE, but aside from condemning the shelling of 
civilian targets, what did the administration do to put real pressure 
on the government? Did you consider freezing assets of Sri Lankan 
officials, denying visas for them and their relatives, opposing 
multilateral bank loans?
    Answer. The United States has a range of diplomatic tools to 
influence the Sri Lankan government, many of which we have employed to 
varying degrees of success throughout the past several years. During 
the final stages of the conflict, the administration's focus was on 
stopping the loss of life and helping to meet the urgent humanitarian 
needs of those civilians trapped by the humanitarian conflict.
    Our Embassy in Sri Lanka was very active in pressing the Sri Lankan 
government to give international organizations, especially the United 
Nations and ICRC, access to the government-designated ``safe zone'' 
within the conflict zone, as well as the surrounding areas where 
civilians were being registered, screened, and sheltered. There was and 
remains an urgent need for food, shelter, water, and medicines in the 
camps for internally displaced persons (IDPs). We are also conscious of 
the needs of those most vulnerable--the very young, new mothers and the 
elderly. We continue to advocate for the freedom of movement and the 
reunification of families who have been separated during the violence. 
Our ambassador spoke with the highest levels of the Sri Lankan 
government--such as Senior Presidential Advisor Basil Rajapaksa and 
Minister of Disaster Management and Human Rights Mahinda Samarasinghe--
several times a week to discuss humanitarian access and other pressing 
issues, and we are continuing these contacts. These efforts have led to 
international organizations being able to operate in camps and 
screening areas and to obtain better access to displaced persons within 
those areas.
    While the Immigration and Nationality Act does permit the denial of 
visas to aliens who have engaged in specific acts such as such as 
genocide and religious persecution, there is no broad statutory 
authority for denying visas for ``humanitarian concerns'' or ``human 
rights violations.''
    Sri Lanka is currently in the process of negotiating a Stand-By 
Arrangement with the International Monetary Fund (IMF). While the 
fighting was ongoing, I noted on May 14 that it was ``not an 
appropriate time to consider'' the IMF program. With the end of 
fighting in Sri Lanka, we are taking a fresh look at the IMF Stand-By 
Arrangement in close coordination with the Department of the Treasury, 
which has the lead on International Monetary Fund issues, and with 
other U.S. agencies. We continue to work with the Sri Lankan government 
on humanitarian issues and political reconciliation to build a 
democratic and tolerant Sri Lanka.
    Question. We have gotten into the habit of paying our contributions 
to organizations like the Comprehensive Test Ban Treaty Preparatory 
Commission and the Organization for the Prohibition of Chemical Weapons 
at the end of the year, which forces them to cut back while they wait 
for the funds. These organizations fulfill key nonproliferation 
functions. Are we going to start paying on time?
    Answer. Funding shortfalls in the Contributions to International 
Organizations account in fiscal year 2005 and fiscal year 2006 caused 
us to begin paying our assessed contributions to several additional 
organizations late, a practice that we had already been employing 
toward a number of organizations since the 1980s. For these 
organizations, including OPCW, payment for all or part of our assessed 
contribution is deferred until the fiscal year following the calendar 
year in which it is due.
    The fiscal year 2010 President's request includes $175 million to 
begin eliminating the practice of deferring payments of our assessed 
contributions. This funding would represent the first step in a multi-
year plan, as the estimated cost for eliminating the practice for all 
affected organizations is close to $1.3 billion. In determining how to 
allocate any funding provided by Congress for this purpose, we would 
factor in Congressional views on how to prioritize funding among all 
the organizations to which we employ a deferred payment schedule.
    Our payments to the CTBTO Preparatory Commission are made from 
voluntary contributions from the NADR account. Many priority programs 
supporting our non-proliferation goals are funded from the NADR account 
such as the IAEA voluntary contribution and export control cooperation. 
We have not had sufficient funding available in recent years to make 
full timely payments to the CTBTO Preparatory Commission. The fiscal 
year 2010 President's request includes $26 million for this program, 
which will not enable us to end the practice of paying late. With the 
administration's new emphasis on pursuing Senate advice and consent for 
ratification of the CTBT, we are committed to becoming current in our 
payments as soon as possible.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
    Question. You mentioned in your testimony the focus that this 
administration to reinvigorate relationships that have not been 
nurtured in recent years. One of these relationships is between the 
United States and Indonesia. As you have stated, one of the areas we 
must re-engage is Southeast Asia, and in particular, Indonesia. Could 
you elaborate on the plans and goals of this administration to 
strengthen the partnership between the United States and Indonesia, in 
addition to providing some insight on the larger diplomacy objectives 
with other nations in Southeast Asia, like the Philippines?
    Answer. The United States and Indonesia have recently begun formal 
discussions on building a Comprehensive Partnership, which would 
provide a framework to broaden and deepen the bilateral relationship 
between the United States and Indonesia. Possible areas of enhanced 
cooperation would include: regional security; environmental protection, 
climate change, and energy security; trade and investment; regional 
democracy and human rights promotion; and higher education. I will meet 
with Indonesian Foreign Minister Hassan Wirajuda on June 8 to discuss 
ways to move forward on plans for the Comprehensive Partnership. We 
have already renewed our Fulbright Scholarship Agreement by signing the 
memorandum of understanding extending the program for 5 years. We also 
hope to bring the Peace Corps back to Indonesia and work together on a 
Millennium Challenge Corporation Compact and reach an agreement on a 
United States-Indonesia science and technology agreement, which would 
provide a framework for U.S. science and technology agencies to work 
with their Indonesian counterparts.
    Our objective in the Philippines is to help the country become a 
more stable, prosperous, and well-governed nation that is no longer a 
haven for terrorists. U.S. assistance aims to accelerate growth through 
improved competitiveness; strengthen governance, the rule of law, and 
the fight against corruption; invest in people to reduce poverty; and 
promote a peaceful and secure Philippines.
    In addition to our important bilateral relationships, we are 
enhancing our ties multilaterally as a result of the growing regional 
integration in Southeast Asia. The administration seeks closer ties 
with ASEAN as part of our effort to increase our engagement with the 
region, and to erase any doubts about the strength and durability of 
the U.S. commitment to Southeast Asia. We are implementing partnerships 
with governments in the region and with the ASEAN Secretariat to 
address the wide range of challenges confronting us, from regional and 
global security, to the economic crisis, to climate change and human 
rights.
    Question. The Asia Pacific region is home to approximately one-
third of the world's population. I was pleased to learn that your trip 
to Asia was productive and well-received. While our focus on the Middle 
East to achieve peace is extremely important, I believe that our 
Nation's relationships with its neighbors across the Pacific are 
equally important. Instability in the region could prove just as 
volatile as our concerns with other areas of the world. Would you 
please comment on the administration's approach to engage our neighbors 
in the Asia-Pacific region, and how resources like Hawaii's East-West 
Center may be utilized?
    Answer. Our relationship with the East Asian and Pacific region 
will be of increasing importance to our well-being and influence over 
coming decades, so it is no accident that my first trip as Secretary of 
State was to that region. Thoughtful engagement and a clear sense that 
we are interested in the views of our many friends and partners in the 
Pacific are and will continue to be a cornerstone of American success. 
We have many tools to pursue engagement with the Asia-Pacific 
countries, and we need to use all of them as skillfully and actively as 
resources permit.
    The East-West Center plays an important role in U.S. relations with 
the Asia-Pacific region. The Center's work supports and complements 
State Department public diplomacy and policy-related efforts through 
its programs of research, seminars and education, including its unique 
initiative for the Pacific Islands. The East-West Center will host the 
Asia-Pacific Economic Cooperation forum (APEC) Symposium in Fall/Winter 
2010 to kick-off the United States APEC host year in 2011. The 
Secretary of State's role in appointing five members of the Center's 
Board of Governors, as well as the Center's regular consultations with 
the Department in Washington and with U.S. Ambassadors and their staffs 
in the Asia Pacific region, enhances the Center's ability to serve as a 
U.S. national institution meeting broad foreign policy goals. It 
functions as a neutral venue for dialogue, collaboration and study that 
is well known and respected across the region. In addition to the 
annual Congressional appropriation it receives through the State 
Department, the Center has been successful in winning grants from the 
Department and other government and private entities to conduct 
exchanges and related activities and is increasing engaged with its 
over 50,000 alumni. As the Center approaches the 50th anniversary of 
its founding by Congress, the State Department looks forward to 
continued cooperation with the Center to meet shared objectives for 
strengthened U.S.-Asia Pacific relations.
    Question. Terrorist acts are of great concern to the United States 
no matter where they may occur. The administration's approach of 
``smart'' diplomacy, marshalling the Department of State's resources, 
and drawing upon the knowledge of its dedicated workforce to provide 
assistance on the ground in many parts of the world is to be commended. 
From your testimony, I believe you have a framework in mind to 
accomplish this vision. Where do you hope the State Department will be 
in terms of achieving this goal in the next 2 to 5 years?
    Answer. We hope that over the next several years we will have 
significantly degraded the operational capability of Al-Qaeda and other 
terrorist groups, restricted the flow of funds to terrorists, and 
deprived terrorists of a market for their violent extremist ideologies, 
which should in turn deprive them of any base of popular support and 
new recruits. President Obama noted in his inaugural speech that 
earlier generations faced down fascism and communism not just with 
missiles and tanks, but with sturdy alliances and enduring convictions. 
We must do the same to effectively counter terrorism. Smart power is 
about using the full range of tools at our disposal--diplomatic, 
economic, military, political, legal, and cultural. Smart power is 
about working within alliances and partnerships.
    We must achieve real unity of effort within the government, working 
with the Departments of Defense, Homeland Security, Treasury, Justice, 
and the intelligence community. We must ensure for example, that our 
foreign assistance is well-targeted, that our rule of law and democracy 
programs are effective, and that our public diplomacy explains our 
policies and draws attention to our work to improve the lives of 
others.
    We must strengthen our partnerships with our traditional allies and 
others abroad, including the vast number of like-minded nations that 
share our abhorrence of terrorism. Some of these are indeed on the 
front lines: Afghanistan, which as the President has emphasized, cannot 
again become a safe haven for the world's most dangerous terrorists; 
and Pakistan, a nuclear-armed nation now threatened by an indigenous 
insurgency with close ties to Al-Qaeda. As the turmoil in South and 
Central Asia has demonstrated, Al-Qaeda and its allies have an ability 
to upset the geopolitics of pivotal regions of the world today that is 
unrivaled among non-state actors.
    While we work bilaterally to improve our partnerships, multilateral 
fora also offer a route for improving global norms of behavior and 
deepening cooperation. In, for example, the United Nations, NATO, the 
G8, the European Union, the Organization of the American States, the 
African Union, APEC and other groups, there are initiatives that could 
bear more fruit with enhanced American leadership and assistance.
    One means to address these challenges is through the Regional 
Strategic Initiative (RSI), developed by the State Department as a key 
tool to develop flexible regional networks, intended to work with 
regional states to develop common regional approaches which will lessen 
or eliminate gaps that terrorists exploit. The RSI uses smart power and 
works with our Ambassadors and interagency representatives in key 
terrorist theaters of operation to collectively assess the threat, pool 
resources, and devise collaborative strategies and policy 
recommendations to Washington and to our host states. RSIs have been 
established in eight regions of the world facing critical terrorist 
threats: Southeast Asia, Iraq and its neighbors, the Eastern 
Mediterranean, the Western Mediterranean, East Africa, the Trans-
Sahara, South Asia, and Latin America. We plan to establish another RSI 
covering Central Asia later this year. As we strengthen collaboration 
through the RSIs, we plan to bring key foreign partners into our 
discussions to develop truly comprehensive strategies.
    To support the deliberations and decisions stemming from the RSI, 
the Office of the Coordinator for Counterterrorism has successfully 
increased the NADR-appropriated budget for RSI from $6 million to $37 
million in the 2010 budget request. This increase, if funded, will 
provide resources for the plethora of CT projects derived from the work 
on RSI globally that enhance the ability of law enforcement personnel 
to fight terrorism. This increase is part of the new set of activities 
funded under the administration's Shared Security Partnership 
initiative, which will bring much-needed resources and interagency 
focus to assisting our partners with the tools and shared vision to 
successfully address shared challenges in the counterterrorism area.
    Activities to counter violent extremism are also crucial smart 
power tools. They allow us to assure allies and to dissuade and deter 
adversaries, and undermine the terrorist's greatest source of 
strength--new recruits. Terrorist organizations use the media to 
disseminate messages to sympathetic audiences, to attempt to recruit 
new followers, to intimidate their opponents, and to conduct 
disinformation campaigns. Using sophisticated, modern methods of 
communication and public relations, they segment audiences and adapt 
their message as appropriate. They do this using a variety of means, 
including traditional mass media and new media channels.
    To address this, our office put in place a strategic communication 
team to support the RSIs and has inaugurated a series of programs; this 
sort of activity also fits neatly into Secretary Clinton's concept of a 
``smart diplomacy'' that addresses international problems through the 
use of whatever combination of panoply of policy and other tools 
available. The Ambassador's Fund for Counterterrorism supports 
innovative field activities and programs that work to support law 
enforcement's fight against terrorism through shifting the perceptions 
of target audiences, undermining the enemy's image, delegitimizing 
extremist ideologies, and diminishing support for violent extremism. We 
also intend to focus our activities more intently on building our 
international partners' capacity to counter extremism themselves, by 
helping them build the soft power tools to address extremism in their 
own countries. This critical piece has been missing from our counter-
extremism efforts.
    We are also working with the private sector to bring their 
resources, which offer enormous potential, to address the underlying 
conditions that give rise to terrorism. For its part, the private 
sector, of course, has a vested interest in partnering against violent 
extremists to secure its existing and future investments and economic 
opportunities.
                                 ______
                                 
           Question Submitted by Senator Barbara A. Mikulski
    Question. From June 26-30 the Czech Republic will hold a Holocaust 
Era Assets Conference in Prague. One of the conference goals is to 
assess progress made since the 1998 Washington Conference on Holocaust 
era property restitution and financial compensation for stolen 
property. This is a very important conference. Six decades after the 
end of the Second World War, there are still large numbers of property 
restitution claims that remain unresolved due to foot dragging in 
national capitals across Europe in enacting property restitution laws 
and identifying funds. This is a tragic injustice that must be 
rectified.
    My questions are as follows:
  --Who does the State Department plan on sending to represent the 
        United States at this conference?
  --Will this delegation be charged with throwing the support of the 
        United States behind efforts to encourage countries that have 
        not enacted property restitution laws to do so as quickly as 
        possible?
    Answer. Secretary Clinton has appointed Ambassador Stuart E. 
Eizenstat to head the United States Delegation to the Conference on 
Holocaust Era Assets in Prague June 26-30, 2009. The Czech Republic is 
hosting this conference in its capacity as the President of the 
European Union. The conference is seen as a follow-up conference to the 
1998 Washington Conference on Holocaust Era Assets which Ambassador 
Eizenstat organized.
    Between 1993 and 2001, Ambassador Eizenstat served successively as 
the United States Ambassador to the European Union; Under Secretary of 
Commerce for International Affairs; Under Secretary of State for 
Economic, Business and Agricultural Affairs; and Deputy Secretary of 
the Treasury. He also served as the Special Representative of the 
President and the Secretary of State for Holocaust Issues in which 
capacity he negotiated Holocaust claims agreements with Germany, 
Austria and France.
    While serving as Ambassador to the European Union, Ambassador 
Eizenstat had a mandate from the Department of State to investigate 
property restitution in the countries of central and Eastern Europe. He 
visited the area several times while he was serving in Brussels and 
pursued the issue after returning to Washington.
    The Department's Special Envoys for Holocaust Issues have also 
worked on the property restitution issue over the past decade and have 
visited the countries concerned on numerous occasions.
    Private property restitution, or compensation if restitution is not 
possible, is a major theme of the Prague conference and the United 
States Delegation will engage fully on that issue. In preparation for 
the Prague Conference, the Department of State hosted two town hall 
meetings on the property issue. Individual claimants and organizations 
representing claimants were invited to attend. As it has in the past, 
the United States will continue to urge the countries of Central and 
Eastern Europe to return property to rightful owners.
                                 ______
                                 
              Question Submitted by Senator Arlen Specter
    Question. In both fiscal year 2008 and fiscal year 2009, Congress 
provided funds to the State Department for efforts to facilitate and 
promote widespread, secure Internet use by individuals residing in 
countries practicing repressive Internet monitoring, censorship and 
control. This is a low-cost method of allowing people, especially those 
living under repressive regimes, to access all-source, uncensored, 
unfiltered information, enabling freedom of thought, expression and the 
unimpeded flow of ideas and information. Language in the report 
accompanying the fiscal year 2008 Consolidated Appropriations Act 
(Public Law 110-161)--which included $15 million for such efforts--
stated, ``DRL should ensure that recipients of funds employ Internet 
technology programs and protocols that facilitate and promote 
widespread and secure Internet use. Such programs should be field 
tested and have the capacity to support large numbers of users 
simultaneously in a hostile Internet environment.'' In the fiscal year 
2009 Omnibus Appropriations Act (Public Law 111-8), Congress provided 
$5 million ``for Internet activities to expand access and information 
in closed societies,'' and noted ``these funds are to be awarded on a 
competitive basis.''
    What is the State Department's plan for awarding fiscal year 2009 
funds? What criteria will be used in the determination of awards? 
Finally, how do Internet access efforts fit into broader U.S. foreign 
policy strategy?
    Answer. The State Department defines ``Internet freedom'' as 
freedom of expression and the free flow of information on the Internet. 
Freedom of expression is a universal human right and communications 
through the Internet, like any other media, should be protected by that 
right. To address challenges to Internet freedom, the State Department 
established the Global Internet Freedom Task Force (GIFT) in February 
2006 as an internal coordination group. Promoting unrestricted access 
to the Internet has been an integral part of the Task Force's three-
pronged strategy.
    First, the State Department monitors Internet freedom in countries 
around the world by spotlighting abuses of Internet freedom and 
responding quickly to protest such abuses. The Bureau of Democracy, 
Human Rights and Labor (DRL) monitors and reports on abuses of Internet 
freedom in its annual Country Reports on Human Rights Practices. 
Second, State responds to challenges to Internet freedom by working in 
partnership with other democratic governments, international 
institutions, and non-governmental organizations (NGOs) to urge 
countries to adopt policies that promote unrestricted access to 
information over the Internet. Third, the State Department advances 
Internet freedom by advocating for expanded access to the Internet and 
by funding organizations that combat Internet censorship.
    Consistent with the conference report for the fiscal year 2009 
Appropriations Bill and the Department's standard operating procedure, 
the fiscal year 2009 Internet freedom funds will be awarded on a 
competitive basis. As such, the competition and selection process for 
fiscal year 2009 funds will be very similar to the fiscal year 2008 
process.
    Prior to publishing a Request for Proposals (RFP), DRL will consult 
with relevant bureaus within State and with USAID on how to most 
effectively use the $5 million for Internet activities to expand access 
and information in closed societies. The RFP will then be published on 
both the grants.gov and DRL web sites. Eligible organizations will be 
invited to submit proposals before a given deadline. A panel comprised 
of members from relevant DRL offices, other bureaus within State, 
USAID, and other technical experts as appropriate, will review the 
proposals that are submitted according to the review criteria outlined 
in the RFP. DRL will also ensure that proposals complement, but do not 
duplicate, ongoing efforts. Proposals that best address DRL objectives 
and that receive the highest number of majority votes from the review 
panel will receive funding.
    The State Department greatly appreciates Congressional interest on 
this issue and looks forward to continued cooperation with Congress on 
advancing Internet freedom.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
    Question. What is the status of the Burmese nuclear program? What 
nations, if any, are assisting Burma in its effort?
    Answer. The United States is concerned with the potential 
proliferation, nuclear safety, and environmental impacts that could 
result from nuclear development in Burma. We do not believe Burma 
possesses the necessary legal, technical, financial, regulatory, or 
enforcement infrastructures needed to safely support nuclear 
development. Burma has not participated in international projects 
designed to help states develop these capacities, such as those offered 
through the IAEA. We also question whether Burma is prepared to accept 
the level of transparency required to establish confidence that a 
nuclear program would be limited to peaceful use. For these reasons, we 
closely monitor Burmese activities in the nuclear field.
    Burma does not currently possess or operate a nuclear reactor. 
However, on May 15, 2007, Russia's Rosatom and Burma's Ministry of 
Science and Technology signed an agreement on the creation of a nuclear 
cooperation center to include construction of a 10-megawatt nuclear 
research reactor in Burma. We have expressed our concerns publicly 
about this agreement. More information on our concerns could be 
provided in a classified setting.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. When studying the State Department's Congressional Budget 
Justification for the Bureau of East Asian and Pacific Affairs, I 
noticed that among the strategic goals and priorities listed, there was 
no mention of shutting down, or at least attempting to shut down, the 
world's largest network of concentration camps and political prisons 
located in North Korea. At what point can this committee expect such a 
goal to be included in the objectives of EAP?
    Answer. We remain deeply concerned about the human rights situation 
in North Korea, including labor and political prisoner camps. We will 
continue to make it clear to the DPRK that human rights are a top U.S. 
priority and will be a key element of any normalization process with 
the DPRK. We will also continue to work closely with other governments, 
including our regional partners, on the improvement of human rights in 
North Korea.
    Given the restrictive operating environment in North Korea, we 
utilize creative and flexible programs to promote human rights in the 
country.
    The Department of State is requesting $3 million in fiscal year 
2010 for programming to promote democracy, rule of law, and human 
rights in North Korea. This represents an increase from the fiscal year 
2009 allocation of $2.5 million for such programs.
    As outlined in our budget justification, these funds will be 
utilized to promote democracy and human rights in North Korea by 
empowering independent defector voices, journalists, and democracy 
activists. It will continue to provide access in North Korea to the 
type of balanced and non-propagandized information from abroad that has 
been critical to defectors' awakening about the realities of North 
Korea and their subsequent desire to seek freedom.
    In addition, U.S. assistance will work to improve respect for human 
rights and rule of law inside North Korea. As the non-governmental 
organization community becomes more engaged in North Korea, the 
potential for programs continues to grow. The United States will build 
the capacity of these organizations to more effectively advocate for 
human rights in North Korea.
    Question. As part of the overall policy towards Iran, does the 
State Department support, as then-Senator and now President Barack 
Obama did in 2008, Federal divestment legislation similar to that 
passed into law in the 110th Congress regarding Sudan (Public Law 110-
174)? Would the administration support including such legislation in 
fiscal year 2010 Appropriations legislation?
    If not, why not?
    Answer. We share Congressional concerns over Iran's continued 
failure to comply with its UNSC, IAEA, and NPT responsibilities and 
obligations. However, additional unilateral sanctions would 
unnecessarily impair the President's flexibility to conduct foreign 
policy, and be potentially harmful to our efforts to develop and 
maintain a multilateral framework to address the risks to the 
international community emanating from Iran. Multilateral sanctions 
against Iran have proven far more effective than U.S. sanctions alone.
    At this juncture in our nascent effort to engage Iran, we believe 
it is critical to maintain the strong support of our partners in the 
international community and ensure that the pressure stays on Iran, not 
our allies. However, I must stress that our offer of engagement will 
not last forever. If, despite our best efforts, our engagement does not 
produce results or Iran fails to comply with its international 
obligations, Iran faces further sanctions and isolation.
    Question. The President has said that we should close Guantanamo 
Bay's detention facility because any benefits it may provide are 
outweighed by the diplomatic cost of allies who refuse to work closely 
with us while the facility remains open. Given these high costs, other 
than citing plans to close the facility, what is the State Department 
doing to rehabilitate the image of Guantanamo Bay and correct 
misperceptions about the detention facility as long as it remains open? 
How does the State Department intend to defend the president's plans 
for the indefinite detention of some categories of detainees? What 
steps will the State Department take in fiscal year 2010 to build 
support for U.S. detention policies even if the administration closes 
Guantanamo Bay and moves detainees elsewhere?
    Answer. The President has said that we will close Guantanamo Bay's 
detention facility because it has set back the moral authority that is 
America's strongest currency in the world. Rather than keep us safer, 
the Guantanamo prison has weakened U.S. national security by serving as 
a rallying cry for our enemies and at the same time setting back the 
willingness of our allies to work with us in fighting an enemy that 
operates in scores of countries. To turn the page and emphasize that 
the President's objective is a diplomatic priority, I have appointed 
Ambassador Daniel Fried as Special Envoy for Closure of the Guantanamo 
Bay Detention Facility. As Special Envoy, Ambassador Fried is working 
with foreign governments to repatriate, resettle abroad, or transfer 
for further judicial process those detainees whom the Guantanamo 
Detainee Review Panel--an interagency group created by the President's 
Executive Order of January 22, 2009, which acts on behalf of the 
relevant Principals--has deemed eligible. In his diplomatic 
engagements, Special Envoy Fried regularly and publicly discusses the 
improved conditions of detention currently in place at the Guantanamo 
Bay detention facility, noting especially the high level of 
professionalism exhibited by U.S. men and women serving on the staff, 
and the comprehensive medical support provided to detainees.
    With regard to future plans concerning communications on detention 
issues, these issues continue to be deliberated within the Executive 
Branch, and it would be premature to discuss the development of any 
communications strategy at this time. The Department is working 
regularly with foreign interlocutors to help them understand how the 
steps that this administration is taking with regard to U.S. detention 
policy and practice are consistent with international law, the rule of 
law, and the deeply held values that we share with our closest allies.
    Question. Aside from any policies or programs that involve 
improving the image of the United States, does the State Department 
have a strategy in fiscal year 2010 to empower moderate Muslims in 
their struggle against violent extremists?
    Answer. The Department of State has an established strategy of 
combating the extremist ideologies that can radicalize young people and 
lead them to join violent groups. There are two general approaches to 
such activity:
    First, we work to create alternatives that will divert ``at risk'' 
youth away from the recruitment process. Examples would be the use of 
mobile phones, SMS messaging, and Co-Nx video chats to amplify the 
reach of the President's recent Cairo speech. But we are also piloting 
other on-the-ground programs like a Teach for Lebanon, based on the 
Teach for America model that employs Lebanese students from top 
universities to teach in the impoverished and often Hezballah-
influenced regions of Lebanon. We are also working to build networks of 
moderates within the Muslim communities of Western Europe that can 
counter the extremist narratives both in Europe and on a more global 
scale. Additional efforts include support for mobile empowerment 
programs for ``at risk'' communities in Afghanistan with the hope of 
expansion into Pakistan.
    Second, we offer opportunities for ``at risk'' youth through 
diversionary programs such as ACCESS English teaching, YES 
scholarships, Fulbright Programs, and focused cultural programs that 
offer the prospect of rational alternatives grounded in the global 
economy.
    Question. The Department of Defense spends hundreds of millions of 
dollars per year engaged in information operations and strategic 
communications activities but recently eliminated the Deputy Assistant 
Secretary of Defense for Support to Public Diplomacy. Are you satisfied 
in the level of coordination between State and Defense in this area? 
How will the State Department coordinate with the Department of Defense 
to ensure the United States sends consistent messages through its 
public diplomacy and strategic communications activities?
    Answer. The Departments of Defense and State have a close, mutually 
reinforcing relationship here in Washington as well as in the field. 
The U.S. military offers many strategic communication resources in 
support of our international efforts and assists us in making a major 
impact with our public diplomacy.
    There have been organizational changes at DOD but we continue to 
enjoy a healthy, cooperative relationship. Under Secretary Flournoy 
recently appointed a senior advisor to serve as OSD Policy's 
Coordinator for Global Strategic Engagement, reporting directly to her, 
and among the Coordinator's responsibilities is the task of 
coordinating State and helping to leverage DOD resources to better 
support public diplomacy. A senior public diplomacy officer (and former 
ambassador) represents the Under Secretary of State for Public 
Diplomacy at the Defense Department and engages daily with OSD/Policy, 
OSD/Public Affairs, the Joint Staff and the geographic combatant 
commands.
    Up to a half-dozen DOD personnel join State FSO's in staffing the 
Global Strategic Engagement Center, an interagency secretariat at the 
State Department that supports NSC Interagency Policy Committee 
decisions under PPD-1 (dated February 13).
    The Departments of State and Defense continue to benefit from 
cross-agency sharing of foreign media analysis, public opinion polling, 
and research. Currently, more than 20 Military Information Support 
Teams help U.S. embassies communicate U.S. policy in foreign countries. 
State and Defense both benefit from ever-increasing sharing of foreign 
media analysis, public opinion polling, and funded research. A new 
initiative to share strategic communication/public diplomacy training 
resources between the Foreign Service Institute and various Defense 
Department training and education institutions shows promise. Military 
officers and FSO's who have shared a classroom tend to work well 
together in PRT's and other foreign environments later. We also see 
promise in the development of a combined video and imagery database 
that will document America's on-the-ground engagement in development 
and humanitarian assistance in many parts of the world--so much of 
which is done by our military colleagues.
    Secretary Gates and I, as well as Under Secretaries McHale and 
Flournoy, continue to believe that, managed properly, our two 
Departments' combined efforts in the field, under the direction of the 
President's ambassadors and their interagency country teams, are 
advancing America's cause and showing the world an open hand of peace, 
democracy, and justice.
    Question. The post of Special Envoy to Monitor & Combat Anti-
Semitism remains unfilled. Given the rise in anti-Semitic activity 
worldwide, and specifically in Venezuela, when can we expect someone to 
be nominated for this post?
    Answer. Filling the position of Special Envoy to Combat Anti-
Semitism is a priority for the Department of State. The Department is 
committed to identifying an exceptionally qualified candidate that can 
be announced to the public in the future.
    Question. In light of the President's new strategy of engagement 
with the government of Hugo Chavez, what steps is the administration 
taking to combat anti-Semitism sponsored and conducted by the Chavez 
regime in Venezuela, as detailed by the U.S. Commission on 
International Religious Freedom, the Anti-Defamation League, and 
several news organizations including the Wall Street Journal?
    Answer. The administration shares your concerns about anti-Semitism 
in Venezuela. We seek to engage the Government of Venezuela to advance 
the interests of the United States--including respect for democracy and 
human rights. Through direct communication with Venezuelan government 
officials, we can stress the importance of specific human rights 
issues, such as religious freedom and religious tolerance.
    In recent years, there has been a rise in anti-Semitic incidents in 
Venezuela, particularly during the Israeli military operations in Gaza. 
Although these incidents have diminished since the end of these 
military operations, the United States will continue to work with our 
hemispheric partners to promote inclusiveness and tolerance in 
Venezuela. Department officials remain in regular contact with 
representatives of U.S. and international Jewish organizations. In June 
2008, the Department's Special Envoy on Anti-Semitism visited Venezuela 
to meet with Jewish community leaders and a Venezuelan government 
official.
    At the Organization of American States' Permanent Council Meeting 
on February 4, the United States condemned the January 30 synagogue 
attack, and called on the Venezuelan government to investigate the 
attack and prosecute those responsible. The U.S. Embassy in Caracas 
also meets regularly with local Jewish community leaders and, after the 
synagogue attack, our Charge met with synagogue leaders and a 
delegation from the American Jewish Committee.
    Question. When can we expect the nomination of a new Ambassador at 
large for International Religious Freedom?
    Answer. Filling the position of Ambassador at Large for 
International Religious Freedom is a priority for the Department of 
State. The Department is committed to identifying an exceptionally 
qualified candidate that can be announced to the public in the future.
    Question. What support will the administration provide for human 
rights and democracy in Syria? For example, has the administration 
engaged with the Damascus Declaration, which represents a broad 
coalition of pro-democracy forces inside Syria?
    Answer. President Obama has made clear his strong support for human 
rights around the world. He has also declared his strong commitment to 
using diplomacy and dialogue to work on issues of mutual interest, as 
well as to bridge the differences which remain in our policies. In 
keeping with this policy, Acting Assistant Secretary Feltman and NSC 
Senior Director Dan Shapiro recently visited Damascus and discussed a 
wide range of issues including our concerns about the human rights 
situation in Syria. We will continue to use dialogue with the Syrian 
government to directly address U.S. concerns and identify areas where 
the United States and Syria can cooperate. The United States has had 
and will continue to have contact with a broad range of Syrian 
nationals, including human rights advocates and civil society leaders 
associated with the Damascus Declaration.
    In fiscal year 2005, NEA's Middle East Partnership Initiative 
(MEPI) launched its first grants aimed at supporting democracy 
promotion in Syria. Through a number of organizations and projects, 
increasing numbers of democracy activists have obtained the skills, 
training, and tools to advocate for reform, mobilize other citizens on 
behalf of the reform agenda, highlight the human rights situation 
inside the country, and begin to develop an alternative vision for the 
country's future. Projects have aimed since then to provide ongoing 
support to Syrian democracy activists mainly through targeted technical 
assistance, including training in political communications, effective 
use of information technology, and the media. The Bureau of Democracy, 
Human Rights and Labor (DRL) also continues to support programs that 
promote democracy and human rights in Syria. Recent program themes 
include civic education, engaging youth in social activism, and working 
with youth to establish online communities for networking and debate. 
DRL plans to support similar programs in Syria in fiscal year 2009 
through a congressional earmark.
    Question. On at least two occasions, the State Department has 
reported on the significant progress by the Philippines in 
strengthening human rights protections--progress that took place both 
before and following the enactment of the conditional FMF funding. I 
therefore noted with interest that the administration, in the Appendix 
to the fiscal year 2010 Budget, proposed to delete the FMF 
conditionality. This action appears to recognize of the progress made 
by the Philippines, as detailed in the State Department's reports.
    So that the Committee can consider the administration's request to 
remove the conditions, please advise the Committee on the bilateral 
cooperative actions the United States intends to take with the 
Philippines to continue progress in protecting human rights in the 
absence of such conditions.
    Answer. As the Philippine government has taken steps to combat 
extra-judicial killings (EJKs) and strengthen human rights protections, 
the United States has been closely engaged with the Philippines in 
promoting and protecting human rights through a variety of targeted 
programs and diplomatic outreach. Although we are pleased there has 
been a decline in the number of killings and forced disappearances, we 
share President Arroyo's view that even one killing is too many.
    Ongoing military assistance programs, including our bilateral 
Philippine Defense Reform initiative, are designed to enhance 
professionalism, strengthen the concept of command responsibility, and 
encourage respect for human rights. U.S. military personnel provide 
human rights training, embedded in military training exercises, to 
thousands of Philippine soldiers each year. U.S. law enforcement 
agencies are similarly engaged with their Philippine counterparts and 
provide training on human rights, ethics, rule of law, leadership and 
anti-corruption. USAID concentrates on building the capacity of civil 
society and the judicial system, the latter by improving the efficiency 
and effectiveness of the courts.
    The Ambassador and other senior U.S. officials in Manila and 
Washington frequently and consistently raise human rights issues with 
Philippine government interlocutors. Since the start of 2009, Embassy 
Manila has intensified its outreach activities on human rights, 
stressing U.S. support for Philippine government human rights 
mechanisms--such as the independent Commission on Human Rights--as well 
as the complementary role of civil society in promoting and protecting 
human rights.
    Embassy Manila and officials in Washington have also emphasized the 
need to address extrajudicial killings (EJKs) and continue to urge the 
Philippine government to make greater progress toward eliminating the 
killings and investigating and prosecuting crimes that have occurred to 
date. Our concerns are reinforced at the working level and through 
targeted assistance programs sponsored by USAID, the State Department's 
Bureau of Democracy, Human Rights and Labor (DRL), and the Bureau of 
International Narcotics and Law Enforcement Affairs (INL). This 
assistance includes: training on the investigation and prosecution of 
EJKs, forced disappearances, and torture; workshops offering human 
rights training for judges, public attorneys, police and military 
personnel, and other government officials; and training and materials 
to enhance the capacity of journalists to produce high-quality, 
accurate reports on human rights investigations and cases, thereby 
promoting greater public awareness.
    We continue to highlight at every opportunity our concerns about 
human rights and extrajudicial killings and seek to identify additional 
ways the U.S. Government can provide assistance.
    Question. When asked about U.S. aid to Africa at a hearing before 
the House Committee on Foreign Affairs in March, Secretary Clinton 
said: ``I don't know where a lot of it ends up. And our transparency 
and our accountability measures are not adequate. We waste way too much 
money on contractors. Fifty cents out of every dollar is not even in 
the pipeline to serving the people it should serve . . . I think we 
have to start over. I think we've got to ask ourselves, what are we 
doing? And how do we do it better? How do we define our mission?''
    Is there a process in place at the State Department to ask those 
very questions with respect to aid to Africa and foreign aid more 
broadly? I understand that Under-Secretary Lew is looking at budgets 
and spending, but how do you plan to answer the larger questions about 
mission and strategy? Who is leading that process, to ensure that 
strategy is driving our budgeting, rather than vice versa?
    Answer. I am committed to making sure that Foreign Assistance is 
properly managed and implemented. One element of this review is 
ensuring, exactly as you say, that our strategy drives our budgeting, 
rather than vice versa. I take seriously the need to modernize how we 
deliver foreign assistance so it is as strategic, effective, and 
coordinated, as possible. We have not yet fully completed our review of 
Foreign Assistance reform. We are thinking through these issues in a 
thoughtful and deliberative manner and will coordinate with a broad 
range of stakeholders.
    Jacob J. Lew, Deputy Secretary for Management and Resources, serves 
as my principal adviser on overall supervision and direction of 
resource allocation and management activities of the Department. He is 
focused on ensuring that the Department of State is well coordinated 
internally and collaborating effectively with other agencies and 
organizations, spending smarter as we build the capacity to achieve our 
objectives and deliver results.
    Deputy Secretary Lew also is also responsible for the overall 
direction, coordination and supervision of operational programs of the 
State Department, including foreign aid and civilian response programs.
    The focus in these first few weeks has been on securing the 
necessary resources to implement a ``smart power'' agenda. I remain 
committed to improving and streamlining our delivery of foreign 
assistance and look forward to consulting closely with the Congress in 
the weeks ahead.
    Question. Recently I met with human rights and humanitarian 
activists to speak about the terrible situation facing the people of 
Burma. I was extremely impressed by the international NGO response to 
Cyclone Nargis--and was pleased that your request for fiscal year 2010 
includes increased funds for humanitarian relief inside Burma. What 
steps are being taken to ensure that the assistance, some of which is 
provided through the ESF account, will reach the people most in need 
and will not be diverted for use or benefit by the SPDC?
    Answer. The United States has committed nearly $74 million to date 
to helping the people of Burma recover from the devastating May 2008 
Cyclone Nargis. This assistance has helped meet the needs of those most 
severely affected by the tragedy; a need that is not being met by their 
own government. The United States provides assistance to the people of 
Burma, including the victims of Cyclone Nargis, through international 
NGOs and U.N. agencies. These organizations closely monitor and account 
for the funding provided to them and provide reports to us regularly. 
Each implementing organization has inventory control systems and 
safeguards in place to ensure USG-funded commodities are delivered to 
the intended beneficiaries. In addition to our implementing partners' 
efforts, U.S. officials in Rangoon and in the region regularly travel 
to cyclone-affected areas and other program sites to monitor the 
distribution of assistance and its impact on the daily lives of the 
Burmese people. Working closely with our implementing partners, we will 
continue to monitor the humanitarian assistance we provide to ensure 
that it does not enrich or benefit Burma's ruling generals.
    Question. The fiscal year 2010 Budget proposes a $15 million cut 
for the National Endowment for Democracy (NED). Does this reflect a 
diminished commitment to the promotion of democracy and human rights? 
If not, please outline the steps the State Department will be taking to 
make up for the diminished capacity of the NED.
    Answer. The Department recognizes and supports the NED's unique 
role as a key strategic partner in promoting democracy worldwide. The 
$100 million fiscal year 2010 request for the NED is actually a $20 
million (25 percent) increase over the previous administration's fiscal 
year 2009 request of $80 million and consistent with NED's fiscal year 
2008 actual funding level, on which the request was based. As a result 
of subsequent Congressional action, the fiscal year 2009 request was 
increased to $115 million, including $15 million for additional, non-
core NED small grants programs. The Department's request for NED does 
not historically include any non-core special program funds.
    The fiscal year 2010 funding request will allow NED to continue its 
strong core grants program in priority countries and the activities of 
the NED's core institutes: the American Center for International Labor 
Solidarity, the National Democratic Institute, the International 
Republican Institute, and the Center for International Labor 
Solidarity. In addition to core funding for the NED, the 
administration's fiscal year 2010 budget request for Foreign Assistance 
funds includes $2.8 billion for Governing Justly and Democratically 
activities to be administered by the U.S. Agency for International 
Development and the Department of State. As has happened historically, 
NED will also be able to implement programs funded from other 
appropriations.

                         CONCLUSION OF HEARING

    Senator Leahy. The subcommittee will stand in recess.
    [Whereupon, at 11:05 a.m., Wednesday, May 20, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Bond, Senator Christopher S., U.S. Senator From Missouri, 
  Prepared Statement of..........................................    16
Brownback, Senator Sam, U.S. Senator From Kansas, Questions 
  Submitted by...................................................    39

Clinton, Hon. Hillary, Secretary of State, Department of State...     1
    Prepared Statement of........................................     6
    Statement of.................................................     2

Gregg, Senator Judd, U.S. Senator From New Hampshire, Statement 
  of.............................................................     2

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................    35

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Opening Statement of.........................................     1
    Questions Submitted by.......................................    27

McConnell, Senator Mitch, U.S. Senator From Kentucky, Question 
  Submitted by...................................................    39
Mikulski, Senator Barbara A., U.S. Senator From Maryland, 
  Question Submitted by..........................................    37

Specter, Senator Arlen, U.S. Senator From Pennsylvania, Question 
  Submitted by...................................................    38

 
                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF STATE

                           Secretary of State

                                                                   Page

Additional Committee Questions...................................    27
Aung San Suu Kyi.................................................    13
Development Resources:
    In the Budget................................................    19
    Responsibilities at State/USAID..............................     9
Foreign:
    Aid Budget...................................................    24
    Policy Challenges............................................    10
Fund Flexibility.................................................    26
Hamas............................................................    14
Iran and Pakistan's Nuclear Program..............................    12
Microenterprise..................................................    22
Middle East Peace and Iran's Nuclear Program.....................    11
North Korea Funds/Economic Zone in Eastern Congo.................    25
Opening Dialogue With Iran.......................................    15
Pakistan's Nuclear Program.......................................     9
Pay Comparability Between Foreign Service Employees..............    19
Public Diplomacy Efforts in Southeast Asia.......................    17
Reinvigorating USAID.............................................    20
USAID............................................................    18

                                   - 
</pre></body></html>
